<html>
<title> - THE PRESIDENT'S 2021 BUDGET</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                      THE PRESIDENT'S 2021 BUDGET

=======================================================================

                                HEARING

                               before the

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

          HEARING HELD IN WASHINGTON, D.C., FEBRUARY 12, 2020

                               __________

                           Serial No. 116-21

                               __________

           Printed for the use of the Committee on the Budget
           
           
           
           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]           
           


                       Available on the Internet:
                            www.govinfo.gov
                            
                            
                            
                            
                               ______

              U.S. GOVERNMENT PUBLISHING OFFICE 
41-908                  WASHINGTON : 2020                            
                            
                            
                            
                        COMMITTEE ON THE BUDGET

                  JOHN A. YARMUTH, Kentucky, Chairman
SETH MOULTON, Massachusetts,         STEVE WOMACK, Arkansas,
  Vice Chairman                        Ranking Member
HAKEEM S. JEFFRIES, New York         ROB WOODALL, Georgia
BRIAN HIGGINS, New York              BILL JOHNSON, Ohio,
BRENDAN F. BOYLE, Pennsylvania         Vice Ranking Member
RO KHANNA, California                JASON SMITH, Missouri
ROSA L. DELAURO, Connecticut         BILL FLORES, Texas
LLOYD DOGGETT, Texas                 GEORGE HOLDING, North Carolina
DAVID E. PRICE, North Carolina       CHRIS STEWART, Utah
JANICE D. SCHAKOWSKY, Illinois       RALPH NORMAN, South Carolina
DANIEL T. KILDEE, Michigan           KEVIN HERN, Oklahoma
JIMMY PANETTA, California            CHIP ROY, Texas
JOSEPH D. MORELLE, New York          DANIEL MEUSER, Pennsylvania
STEVEN HORSFORD, Nevada              DAN CRENSHAW, Texas
ROBERT C. ``BOBBY'' SCOTT, Virginia  TIM BURCHETT, Tennessee
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
PRAMILA JAYAPAL, Washington
ILHAN OMAR, Minnesota
ALBIO SIRES, New Jersey
SCOTT H. PETERS, California
JIM COOPER, Tennessee

                           Professional Staff

                      Ellen Balis, Staff Director
                  Becky Relic, Minority Staff Director
                  
                                CONTENTS

                                                                   Page
Hearing held in Washington, D.C., February 12, 2020..............     1

    Hon. John A. Yarmuth, Chairman, Committee on the Budget......     1
        Prepared statement of....................................     4
    Hon. Steve Womack, Ranking Member, Committee on the Budget...     6
        Prepared statement of....................................     8
    Hon. Russell Vought, Acting Director, Office of Management 
      and Budget.................................................    12
        Prepared statement of....................................    14
    Hon. Sheila Jackson Lee, Member, Committee on the Budget, 
      article submitted for the record...........................    70
        Statement submitted for the record.......................    80
    Hon. John A. Yarmuth, Chairman, Committee on the Budget, 
      questions submitted for the record.........................    85
    Hon. Ralph Norman, Member, Committee on the Budget, questions 
      submitted for the record...................................    87
    Hon. Jimmy Panetta, Member, Committee on the Budget, 
      questions submitted for the record.........................    88
    Hon. David E. Price, Member, Committee on the Budget, 
      questions submitted for the record.........................    89
    Answers to questions submitted for the record................    91


                      THE PRESIDENT'S 2021 BUDGET

                              ----------                              


                      WEDNESDAY, FEBRUARY 12, 2020

                          House of Representatives,
                                   Committee on the Budget,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
room 210, Cannon House Office Building, Hon. John A. Yarmuth 
[Chairman of the Committee] presiding.
    Present: Representatives Yarmuth, Moulton, Jeffries, 
Higgins, Boyle, Khanna, DeLauro, Doggett, Price, Schakowsky, 
Kildee, Panetta, Morelle, Horsford, Scott, Jackson Lee, Lee, 
Jayapal, Omar, Sires, Peters, Cooper; Womack, Woodall, Johnson, 
Smith, Flores, Holding, Stewart, Norman, Hern, Roy, Meuser, 
Crenshaw, and Burchett.
    Chairman Yarmuth. This hearing will come to order. Good 
morning. I want to welcome everyone to this hearing on the 
President's budget submission, and certainly welcome the Acting 
Director of OMB, Russell Vought. Thank you for being here to 
testify on the President's 2021 budget proposal.
    It is my hope that today's hearing will provide an open and 
honest examination of the priorities set forth by the Trump 
Administration, so we can get back to work passing legislation 
and appropriations bills that reflect the needs and priorities 
of the American people.
    I will now yield myself five minutes for an opening 
statement.
    Just six short months ago the President signed a 
bipartisan, two-year budget deal into law. It does everything 
the President's proposal fails to do. It set rational, 
discretionary top lines, allowing strong investments in our 
national and economic security. It had bipartisan support, 
including the Ranking Member and myself, and it set Congress up 
for a successful appropriations process.
    But now the President is going back on his word. Instead, 
he is once again proposing deep cuts to critical programs that 
help American families and prepare our nation for the future. 
Once again, he is breaking his promises, and lying to the 
American people.
    Less than a week after promising Medicare and Social 
Security would be safe from harsh budget cuts, the President 
went and proposed slashing a half-a-trillion dollars from 
Medicare, knowing it would hurt seniors and cut Social Security 
by at least $24 billion, knowing it would hurt our nation's 
disabled workers.
    During his State of the Union address, the President said 
he was working to improve Americans' health care. Then he 
turned around and proposes cutting Medicaid by more than $900 
billion, knowing it will result in families losing life-saving 
health care coverage.
    After talking up his plans to build an inclusive society by 
making sure that every young American gets a great education 
and the opportunity to achieve--and that is a quote--the 
President proposes slashing discretionary resources for the 
Department of Education by $5.6 billion, disinvesting in 
America's students. He then proposes a $170 billion cut over 10 
years to student loan programs, knowing it will make it harder 
for young people to earn a college degree.
    The President is trying to cut nutrition assistance by more 
than $180 billion, and that is before taking his recent mean-
spirited regulations into account, knowing all along it will 
force more families to go hungry.
    In his State of the Union speech, President Trump talked 
about planting trees to protect the environment. You know how 
you protect the environment? By putting people before 
polluters, and not gutting the EPA by more than 26 percent, 
like this budget would do.
    Amid the deadly coronavirus outbreak, the President gave 
the American people his word that his Administration would, 
``take all necessary steps to safeguard our citizens from this 
threat.'' That was another lie, because just days later his 
budget included a nearly 19 percent reduction to the Center for 
Disease Control and Prevention's discretionary budget 
authority, despite this ongoing threat.
    The bottom line here is that this President and his 
congressional Republican allies have routinely prioritized 
special interests and the rich and powerful over the health, 
safety, and economic security of American families. The 
President's destructive and irrational budget continues that 
misplaced allegiance by intentionally going after working 
families and vulnerable Americans, while simultaneously 
extending tax cuts and giveaways to the very wealthiest 
individuals and large corporations.
    Over the course of the decade, the President's budget would 
slash non-defense discretionary funds by more than $1.5 
trillion, taking a wrecking ball to America's economic future 
and security. At the same time, it extends expiring provisions 
of the 2017 GOP tax law, adding more than $1 trillion to the 
debt, a reality the President was unable to hide, even with his 
fantasy growth projections.
    This President is asking working Americans to sacrifice 
their safety, their health, their economic security, their 
futures to cover the cost of Republicans' tax scam that was 
never going to pay for itself.
    While I have come to expect shocking and unthinkable budget 
cuts from this Administration, it never gets any easier to see 
our President's complete disregard for the human cost of his 
budget. Thankfully, with a budget already in place for 2020 and 
2021, and the Senate majority leader reaffirming his commitment 
to the Bipartisan Budget Act of 2019, I am confident that 
Congress will stand firm against the President's warped vision 
for our nation's future.
    Finally, Director Vought, for obvious reasons there is a 
lot of interest in your presence here today. This is the first 
time you have testified since President Trump was impeached.
    I am not going to rehash that entire process, but a major 
finding of Congress's investigations was that the 
Administration broke federal law when OMB failed to abide by 
the Impoundment Control Act. That law falls squarely within the 
jurisdiction of the Budget Committee, so I think it is 
critically important that you speak to OMB's adherence to the 
ICA today. As Director, it is your responsibility, your 
obligation to make sure that OMB is in complete compliance with 
the ICA, and fully respects that the Constitution grants 
Congress the power of the purse.
    I promise that this Committee will continue its vigilance, 
and not allow the President to unilaterally substitute this 
budget for the bipartisan budget already in place, and I keep 
my promises.
    [The prepared statement of Chairman Yarmuth follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
   
    
    Chairman Yarmuth. I look forward to hearing your testimony, 
and I now yield five minutes to the Ranking Member.
    Mr. Womack. I thank the Chairman for holding the hearing, 
and I thank you, Acting Director Vought, for being here with us 
today.
    We are here to examine the President's budget request for 
fiscal 2021. It is my hope that we will stay on task.
    I applaud the President for actually doing a budget. Here 
in the House, the Budget Committee hasn't provided a budget. 
Interesting to me, because our Committee Majority's website--
there is a section titled ``Responsibility,'' and the first 
sentence in the section reads, ``The Committee's chief 
responsibility is to draft an annual concurrent resolution on 
the budget that provides a congressional framework for spending 
and revenue levels, the federal surplus or deficit, and public 
debt.''
    As we all know, the Constitution gives Congress the power 
of the purse. Funding the priorities of the American people 
while addressing our nation's serious fiscal challenges is no 
easy task. It requires a lot of collaboration, which is why 
hearing from the Administration today is vitally important.
    In recent months we have heard from the likes of the 
Congressional Budget Office, and just yesterday from the 
Federal Reserve, and many other outside experts who have all 
consistently warned that our nation is nearing a fiscal crisis. 
We ought to pay attention to those warnings.
    The national debt is over $23 trillion. It is projected to 
grow to more than $36 trillion within a decade. Soon 
thereafter, on this path, the federal debt will reach the 
highest level in American history as a percentage of the 
economy. CBO projects that by 2049 the federal debt will equal 
$248,000 per American. That is almost $1 million per family of 
four.
    From there, it only grows more. Interest payments on the 
debt will increasingly crowd out other federal spending that is 
directed toward programs that Americans rely on. CBO projects 
interest payments on the debt will amount to $382 billion in 
fiscal 2020. That is 11 percent of federal tax revenue. We 
cannot continue on this path.
    We have to lead by example. We have to make the tough 
choices necessary to reverse course. Yet here we are, the 
greatest nation in the history of the world, and we can't even 
manage to come up with something as simple as a doggone budget. 
But the President is doing his duty, and has put forward a 
budget that takes steps in the right direction. I recognize 
that there will be others that will push back on his plan. But 
at least we have a plan to look at.
    The budget does not achieve balance within 10 years, but 
the overall 10-year fiscal trajectory puts the budget on a path 
to balance by 2035.
    The President's budget reduces deficits by $4.6 trillion 
between 2021 and 2030, whereas under current law deficits are 
more than $1 trillion annually and, under this proposal the 
annual deficit would be lowered to $261 billion by 2030.
    Further, this budget reduces the share of debt held by the 
public from 81 percent of GDP to 66 percent of GDP. I kind of 
like that direction. That is a tremendous improvement from the 
historically high debt levels projected for 2030 under current 
law.
    The President's budget also does not breach the spending 
caps called for in the Bipartisan Budget Act of 2019. It meets 
the defense spending cap, and is below the non-defense 
discretionary cap by $37 billion for fiscal 2021.
    Additionally, there are several priorities I am pleased to 
see in this budget.
    First, as someone who served in the military, I believe 
ensuring the safety and security of the American people is 
probably our most fundamental purpose of the federal 
government. I appreciate the Trump Administration's clear 
commitment to this responsibility.
    Second, I also appreciate the Administration's focus on 
this budget, on improving the long-term health of the American 
people by investing in measures to combat the opioid epidemic 
that is crippling communities across the country.
    Third, we have heard in this room many times that our 
economy is historically strong. The number of jobs available 
exceeds the number of people looking for work by a million. We 
must ensure that our work force meets the demands of our strong 
economy, which is why I am pleased the Administration is once 
again investing in career and technical education.
    But as I have said before, the biggest threat to all of 
these priorities, and to the long-term security of our nation, 
is our out-of-control mandatory spending. It accounts for 70 
percent of all federal spending, and is projected to increase 
to 76 percent, according to CBO, by 2029. These programs have 
far outgrown their intended size and scope, and they have far 
exceeded what we can afford. I have said many times that we 
cannot have a real conversation about reducing the deficits and 
debt without addressing mandatory spending.
    The President's budget takes steps in the right direction. 
There is a lot of work to be done. It is imperative we work 
together in a bipartisan, bicameral fashion to advance a budget 
that funds our nation's important priorities, while 
acknowledging our very real fiscal challenges.
    [The prepared statement of Steve Womack follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    Mr. Womack. I look forward to the discussion today. I thank 
the Chairman, and I yield back the balance of my time.
    Chairman Yarmuth. I thank the gentleman for his opening 
statement.
    Now, once again, welcome, Acting Director Vought. You have 
the floor, and you have five minutes for your prepared 
statement.

  STATEMENT OF THE HONORABLE RUSSELL VOUGHT, ACTING DIRECTOR, 
                OFFICE OF MANAGEMENT AND BUDGET

    Mr. Vought. Thank you, Chairman Yarmuth, and Ranking Member 
Womack, and Members of the Budget Committee. I am here today to 
discuss the President's budget for Fiscal Year 2021, which we 
have titled, ``A Budget for America's Future.'' This is a 
budget that reflects and builds upon the pro-growth economic 
policies of this President, which have unleashed one of the 
most powerful economies in American history.
    Unemployment is down, across the board. People are coming 
back into the work force. Wages are rising, 401(k)'s, pensions, 
and college savings accounts are growing. This budget continues 
these economic policies, and once again provides a path for 
enduring economic expansion by tackling the very real problem 
of deficits and our nation's debt.
    The plan offered today proposes to balance the budget 
within 15 years by proposing more deficit reduction, $4.6 
trillion, than any president in history. Under this budget, our 
current path of trillion-dollar deficits as far as the eye can 
see will be reduced to $261 billion in 2030, with a surplus in 
2035. Debt, as a percentage of GDP, currently at 81 percent and 
projected to grow to 100 percent within 10 years, will drop to 
66 percent by the end of the 10-year window.
    But this budget is not a green eyeshades budget. It funds 
national priorities that this Administration believes are vital 
for the security and prosperity of the American people. Let me 
give you a few examples.
    Seven hundred and forty-one billion dollars for the defense 
of this country. This amount comes on the heels of defense 
budgets of $700 billion, $716 billion, and $738 billion in 
prior years.
    Nuclear modernization itself will receive a nearly 20 
percent increase from the last fiscal year. At the same time, 
this budget also reflects at a high level an assumption that 
our overseas operations will require less funding as the 
President works to end endless wars.
    The budget also makes substantial investments in border 
security and immigration enforcement, ensures that every high 
school has a high-quality career and technical education 
program, funds NASA's return to the moon by 2024 as a platform 
to Mars and thereafter, and grows VA medical care at 13 percent 
to fully fund the Mission Act.
    It includes substantial resources to fight against the 
opioid epidemic, and proposes a $1 trillion infrastructure 
package to rebuild our roads and bridges.
    It also keeps the promises that President Trump has made to 
the American people, such as protecting Social Security and 
Medicare for seniors. This President is a promises made, 
promises kept kind of president, and this budget is no 
different.
    Despite the predictable, misleading claims by many across 
the other side, Medicare will grow on average of 6 percent a 
year under this budget.
    The budget does propose good government reforms to lower 
drug prices, root out improper payments, and address wasteful 
spending.
    This budget proposes to remove from Medicare certain 
programs such as uncompensated care and graduate medical 
education, which are draining the Medicare Trust Fund, even 
though they benefit more than just seniors. To be clear, these 
programs would still be funded outside of Medicare, but with 
reforms to limit their growth.
    Similarly, this budget proposes payment site neutrality for 
the same service being performed at a different health care 
location. So a CAT scan costs the same at an outpatient 
hospital as it does at the physician office.
    Lowering the cost of health care is not a cut. Medicaid 
will grow at 3 percent, which is higher than the rate of 
inflation. But the program has $57 billion in improper payments 
last year, and HHS lacks the statutory tools to recoup most of 
these costs. This budget would provide such authority, while 
giving states the option of a block grant or a per capita 
payment. Only in Washington, DC. does it look at a budget that 
grows every year faster than inflation and says that is a cut.
    The budget proposes other common-sense, mandatory savers, 
such as a universal work requirement for Medicaid, TANF, 
housing, and food stamps. This will ensure that we are helping 
to lift able-bodied adults without dependents off of a cycle of 
dependency and onto a ladder of economic opportunity.
    In terms of discretionary spending, this budget will 
propose a substantial reduction, similar to previous budgets. 
While budgeting at a defense cap under current law, this budget 
proposes a 5 percent cut.
    This budget continues to be a statement from this President 
and his Administration that we stand with families and 
businesses across the country who have to balance their 
budgets. Washington, DC. does not stand with them, and for too 
long has operated under a different principle of recklessly 
spending other people's money. That has to change, and 
hopefully this budget leads to it.
    I am ready to take your questions.
    [The prepared statement of Russell Vought follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Chairman Yarmuth. I thank you, Mr. Vought, for your opening 
statement. We will begin our question-and-answer session now.
    As a reminder, Members may submit written questions to be 
answered later in writing. Those questions and Mr. Vought's 
answers will be made part of the formal hearing record. Any 
Members who wish to submit questions for the record may do so 
within seven days.
    As we usually do, the Ranking Member and I will defer our 
questions until the end of the hearing. And I now recognize the 
Vice Chairman of the Committee, Mr. Moulton of Massachusetts 
for five minutes.
    Mr. Moulton. Mr. Vought, thank you very much for being here 
today.
    I want to address my questions to the President's claim 
that this budget is good for national security, for national 
defense. I find that a little bit hard to believe when it 
conflicts so directly with the advice that he has been given by 
his own generals.
    And, as co-chair of the Future Defense Task Force on the 
House Armed Services Committee, I am also particularly 
concerned about the investments that China is making in R&D to 
develop a new generation of weapons that we are failing to 
match.
    Do you recall, Director, how we responded to the Sputnik 
moment in the--in 1957?
    Mr. Vought. We increased our national investment to make 
sure that we were prepared for our adversaries.
    Mr. Moulton. Right. And where did we increase those 
investments?
    Mr. Vought. We increased them in the research and 
development area.
    Mr. Moulton. Specifically in education, in graduate school 
education. And yet this budget proposes eliminating subsidized 
student loans. It cuts 8 percent from the Department of 
Education. How does that meet our next generation defense 
needs, if we are not doing this basic R&D, if we are not 
investing in the people who will make the new discoveries 
essential for our national defense?
    Mr. Vought. We believe we are investing in our people in 
this budget. We believe that we are making significant reforms 
to education as a result of this budget.
    For instance, there is a new proposal, an education block 
grant, to take 30 different programs that we believe can be 
better reformed, and give states more flexibility to have 
better outcomes. And they know their people, they know their 
schools, they know their communities better. That is an example 
where we think, for basically the same amount of money, when 
you control for the fact that we are eliminating certain 
programs that are wasteful, for the same amount of money that 
you all appropriated last year, we are going to have better 
outcomes at the state level in the area of education.
    Mr. Moulton. So at its best, you are saying that we will 
have the same amount of money, when the President claims that 
we are actually investing more.
    But what I would suggest is maybe you make those reforms 
first, and show how you can save the money before you cut 8 
percent from the Department of Education, because that is not 
going to help us prepare for a new generation of threats.
    Let me give you another example. Congress and President 
Johnson came together and established DARPA to a deal with a 
new generation of defense threats, the kinds of things that, in 
the 1960's, are analogous to artificial intelligence and 
autonomous weapons that China is pouring billions of dollars 
into today. Initial funding for DARPA was $20 million. In 
today's dollars that is $4,500 million. The President's budget 
proposes a total of $459 million in defense, AI, R&D, $459 
million compared to 4,500. We are not meeting this threat.
    Mr. Vought. Congressman, we believe we have got a 
substantial investment, particularly in the area of AI and in 
Quantum that we want to double these important----
    Mr. Moulton. Yes, it is substantial, unless you look at 
what the competition is doing.
    Now, the President's former Secretary of Defense, General 
Mattis, said, ``If you don't fund the state department fully, 
then I need to buy more ammunition.''
    Admiral Mike Mullen, who served as chairman of the Joint 
Chiefs of Staff to both Presidents George W. Bush and Barack 
Obama, said, ``This is a moment when more investment in 
diplomacy and development is needed, not less.' '''
    Director Vought, why does this budget do the exact 
opposite, cutting the state department by 21 percent?
    Mr. Vought. Because there is a difference between 
diplomacy, which we fully fund, and foreign aid, which we think 
we have gone on too long with providing at such high levels----
    Mr. Moulton. OK, so I will--so I was just in Vietnam. I was 
just in Vietnam two weeks ago, which has become a critical ally 
in the growing military and economic competition with China. 
What I heard from our military officers, our military officers 
and from Vietnamese officials on the ground, is that they want 
to be with us. They want to be with America, not with 
authoritarianism.
    But our diplomatic and development effort is not keeping 
pace with China's Belt and Road Initiative. So they are asking 
for more development money, our military officers on the 
ground. You are doing the exact opposite.
    I mean, does President Trump know more than our military 
officers on the ground, more than General Mattis and Admiral 
Mullen?
    Mr. Vought. We tripled the funding for the Development 
Finance Corporation that you just enacted into law, 
specifically so we can compete with China. We have an Indo-
Pacific strategy in which countries of which you have already 
mentioned would also benefit.
    But we think it is high time that we get out of the 
situation where we pay for statues to Bob Dylan in Mozambique, 
and other wasteful spending across the----
    Mr. Moulton. Well, Director Vought, I think that the 
President ought to spend some time on the ground in Vietnam. I 
know he doesn't believe in that, personally. He was happy to 
send someone else in his place. But it might teach him a little 
bit about what development and diplomacy does for our military.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Ohio, Mr. Johnson, for five 
minutes.
    Mr. Johnson. Thank you, Mr. Chairman. You know, sometimes 
these lines of questioning just appear to me to be very 
uninformed.
    When did the Sputnik challenge occur?
    Mr. Vought. The late 1950's to early 1960's.
    Mr. Johnson. OK. When did we put a man on the moon?
    Mr. Vought. Late 1960's.
    Mr. Johnson. When did the Department of Education come into 
being?
    Mr. Vought. The late 1970's.
    Mr. Johnson. Yes. It seems to me we are pretty smart 
people. We learned how to solve a lot of problems: the light 
bulb, nuclear energy, space travel, overcoming the Soviet 
threat. And we did it without help from Washington bureaucrats 
on how to educate our kids.
    I applaud what the President is doing.
    Mr. Vought, thanks for being here today. You know, we saw 
the President's budget. It is a first important step in 
addressing the federal spending issue. I look forward to 
discussing the President's budget, and I hope working with my 
colleagues here to address our nation's unsustainable fiscal 
path, and ensuring that our economy remains strong.
    Over the last few days I have heard a lot of criticism from 
my Democrat colleagues about the President's budget, how it is 
a blueprint for destroying America, and that budgets are more 
than just physical documents, they are a reflection of our 
values. Even the Speaker of the House has said the budget is a 
statement of our values. I find these statements ironic and, 
quite frankly, hypocritical.
    If my colleagues truly believe that a budget is a 
reflection of our values, then they should produce a budget 
proposal of their own. Why is this the second year that the 
House Democrats have not produced a budget?
    Why did they not produce a budget the last time they had 
control of the House if, as they say, it is a reflection of our 
values?
    I don't get that.
    One of my Democrat colleagues even called the President's 
budget proposal a declaration of war on the American Dream. I 
would like to respectfully remind my colleagues that the 
President's budget proposal is just that, a proposal.
    And I am grateful that the President's budget is forcing us 
to have a discussion that many of my colleagues don't want to 
have. There is no question that federal spending is out of 
control, Medicare and Social Security are on a path to 
insolvency, and our congressional budget process is broken. As 
Members of this Committee, we must come together and find a 
bipartisan solution to solve these critical problems. The 
President submitted his budget to Congress. Now it is time for 
Congress to produce a budget.
    Today we are here to discuss the President's 2021 budget 
proposal, which includes reforms of mandatory spending 
programs, key investments in national security funding, and a 
commitment to eradicate waste in government spending. More 
importantly, it provides for important and overdue investments 
in rural America, a region of the country that I represent.
    As a representative of rural eastern and southeastern Ohio, 
I am happy to see that the President's budget is investing in 
rural communities, communities that are facing serious 
challenges, like the need for rural broadband and greater 
access to health care. Mr. Vought, can you tell me and our 
colleagues how the President's budget is investing in rural 
America, specifically how it invests in telecommunications 
infrastructure to better provide greater access to broadband in 
rural states?
    Mr. Vought. Sure, I would--thank you, Mr. Johnson. I would 
draw your attention to two things, in particular.
    No. 1, the infrastructure package, as a whole, is something 
that we believe is going to have a substantial investment in 
rural America. That infrastructure package is a 10-year 
reauthorization at higher levels of the current formula for 
highway spending. But it also includes a $190 billion surge to 
be able to deal with nationally significant areas, rural 
America, broadband, things of that nature.
    And we continue to provide high levels of funding for the 
broadband initiative at the Department of Agriculture. We have 
another significant--a $250 million investment this year. That 
is on top of about $1.8 billion that is sitting there, waiting 
to be spent of carryover. So we are providing as much money as 
can be spent in that important area.
    Mr. Johnson. Well, you know, last week we passed 
legislation here in the House to repeal the pre-funding mandate 
that has cost the Postal Service an average of $5.4 billion. 
Postal Service in rural America is another very, very important 
service that our people need. Can you discuss how the budget, 
the President's budget, helps put the postal service on a 
physically sustainable path to avoid a taxpayer bailout, and 
protecting the benefits earned by postal workers?
    Mr. Vought. Yes, it is something we have considered in 
previous budgets, and it is reflected in this, as well. At the 
high level, we want to make sure that the post office has--
while maintaining service to rural America, we want to be able 
to give them the tools that are necessary to cut costs and to 
have flexibility to operate as much as a normal business as 
possible.
    If you look at postal reform over the last 30 or 40 years, 
the hope was that the post office in the 1970's, early in the 
1970's, would be freed up to come as close to operating as a 
business as possible. Unfortunately, that has not been the 
case. And, to the extent that there have been bailouts, that 
has been unfortunate. We are trying to continue to put reforms 
included in this budget to be able to get them on a better firm 
foundation, going forward.
    Mr. Johnson. Thank you. And Mr. Chairman, I yield back.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from New York, Mr. Jeffries, for five 
minutes.
    Mr. Jeffries. I thank the distinguished Chair for your 
leadership and for yielding.
    Mr. Vought, prior to you assuming your current position of 
working at the Office of Management and Budget, you were a 
conservative political operative. Is that right?
    Mr. Vought. I have both worked on Capitol Hill, in this 
Committee--I grew up professionally working for a number of the 
Members who served on this Committee as a budget staffer. And I 
have a great fondness and affection for this place. I also did 
work at the Heritage Foundation in getting people involved in 
the political process.
    Mr. Jeffries. OK. As vice president of Heritage Action, is 
that correct?
    Mr. Vought. That is correct.
    Mr. Jeffries. And that is the political wing of the 
Heritage Foundation, true?
    Mr. Vought. It is the arm of Heritage Foundation that gets 
people involved in the political process.
    Mr. Jeffries. OK. I am interested in trying to get some 
clarity as to reconciling the public statements that President 
Trump has made relative to his budget and policy priorities 
versus what is actually in the document that he submitted to 
this Congress.
    On February 8th President Trump tweeted, ``We will not be 
touching your Social Security or Medicare in fiscal 2021 
budget.'' Is that correct?
    Mr. Vought. He did say that.
    Mr. Jeffries. But the 2021 budget, in fact, would result in 
a $500 billion cut to Medicare over a 10-year period. True?
    Mr. Vought. That is not true. It does not cut Medicaid, 
Medicare or Medicaid.
    Mr. Jeffries. OK. If it walks like a duck, and talks like a 
duck, and looks like a duck, it is a duck. It is a $500 billion 
cut to Medicare over a 10-year period of time.
    Now, the President's budget also cuts Social Security 
disability by $24 billion. True?
    Mr. Vought. The budget has reforms to the disability 
insurance program to ensure that people are getting off of a 
cycle of dependency and getting back into the work force when 
they can get jobs in the national economy.
    Mr. Jeffries. Right. And that will result in a $24 billion 
cut, correct?
    Mr. Vought. No, we don't believe it will reduce--will be a 
cut. We believe that there are savings to be had from getting 
people back to work. It is also $7 billion in improper payments 
in the disability insurance program, and that is reflected in 
our budget. But there is no cuts there.
    Mr. Jeffries. OK, if we can stick to facts, as opposed to 
alternate facts, that would be helpful.
    During the President's State of the Union address, he 
stated, ``I have made an ironclad pledge to American families. 
We will always protect patients with preexisting conditions.'' 
Did he make that statement?
    Mr. Vought. He did. And he believes it, and this budget 
reflects it.
    Mr. Jeffries. There is nothing in the 2021 budget that 
protects individuals with preexisting conditions. True?
    Mr. Vought. There is a health care allowance that reflects 
a future proposal that is not reflected in this budget to the 
degree of specificity. But this President has proposed--
continues to propose that----
    Mr. Jeffries. OK, reclaiming my time, let me ask you a 
particular question with precision. Does this budget support 
the repeal of the Affordable Care Act?
    Mr. Vought. The budget has a series----
    Mr. Jeffries. Yes or no.
    Mr. Vought. The budget has a series of reforms with regard 
to health care reform that tackle some of the drivers, some of 
which were created as a result of the Obamacare law that was 
passed about 10 years ago.
    Mr. Jeffries. OK.
    Mr. Vought. But we believe Medicaid will continue to grow 
at 3 percent, and Medicare will grow at three--at 6 percent.
    Mr. Jeffries. Is the President currently in court through 
his Department of Justice supporting the repeal of the 
Affordable Care Act as unconstitutional? Yes or no.
    Mr. Vought. The Justice Department has--is involved. The--
our view is that we want the court to work its will on a law 
that has long been viewed as unconstitutional. But that doesn't 
mean that, no matter what happens in the court, that this 
Administration won't respond with a clear repeal-and-replace 
piece of legislation, as we have had specifics in previous 
budgets.
    Mr. Jeffries. Right. There is nothing in this budget that 
proposes a replacement for the Affordable Care Act that the 
Trump Department of Justice is trying to declare 
unconstitutional. Is that correct?
    Mr. Vought. That is not true. There is a health care 
allowance that is meant to look forward to a repeal-and-replace 
piece of legislation that fully protects individuals with 
preexisting conditions.
    Mr. Jeffries. OK, that is inaccurate, but let's move on.
    President Trump repeated a campaign promise recently that 
Mexico would be paying for a wall on the southern border. He 
says, ``Mexico is, in fact, you will soon find out, paying for 
the wall.'' Did you make that statement in January?
    Mr. Vought. He has made that statement. I think if you look 
at the--what Mexico is doing----
    Mr. Jeffries. But does your--I am sorry, reclaiming my 
time, does your budget propose $2 billion in American taxpayer 
money for the border wall along the U.S.-Mexico border?
    Mr. Vought. It continues to propose money for the border 
wall along the southern border. We believe Mexico is doing a 
tremendous job in allowing--in helping us deal with the 
apprehensions along the southern border. Unfortunately, they 
have had to come up and step up to the----
    Mr. Jeffries. Well, thank you. Reclaiming my time, just 
simply--you know, the President's budget is a living, breathing 
fact check on all of the public lies that he has told, relative 
to his policy priorities. And that is shameful. I yield back.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Missouri, Mr. Smith, for five 
minutes.
    Mr. Smith. Thank you, Mr. Chairman. Thank you, Acting 
Director, for being here.
    Let's look at some facts real quick. I am reminded, 
listening to my colleague ask you questions, you are the budget 
Acting Director.
    I think of the number 302, 302. What do you think that is? 
Do you have any idea?
    Mr. Vought. I don't know if it is a trick question, but I 
think of it in terms of an allocation, but that is maybe 
because I am from this Committee.
    Mr. Smith. No, it is how many days have expired since the 
Democrats have failed to produce a budget from last year. Three 
hundred and two days ago, Congress was supposed to pass a 
budget. We didn't pass a budget. But you know what? Sixty-three 
is another number we need to pay attention to. That is how many 
days we have to pass this year's budget. Let's see if we can do 
either one of them.
    You work for a gentleman who has presented a budget every 
year that he was required to present. I serve with the 
Democrats who have failed to even file a budget since they have 
been in the majority. Every year that the Republicans were in 
control we passed a budget out of this very Committee. In fact, 
the Republicans have a budget right now. The President 
submitted a budget.
    Just file a budget. Just put it on paper.
    It is so funny. I laughed. Started this week. The leader of 
the House Democrats, Speaker Pelosi, reiterated on Twitter on 
Sunday, ``The budget is a statement of your values.'' Just 
Sunday. ``The budget is a statement of your values.'' And then 
yesterday, in a press conference, she says it is the heart. And 
it is the beginning of all things that start out in Congress.
    Well, I guess we can't start, because the other side can't 
file a budget.
    Just file a budget. Show us your values. Your Speaker says 
that a budget is a statement of your values. I just wonder, I 
mean, don't they have values? Don't they have initiatives?
    Maybe it is because they don't want the American public to 
know exactly what their plans are, what their proposals are, 
what their budget is. More than half of the Democrats on this 
very Committee are sponsors of the Green New Deal and Medicare 
for All.
    That needs to be in your budget, if you had a budget. But 
guess what? That would cost over $120 trillion. That is why you 
can't get a budget, because you don't want the American people 
to see how out of touch you are.
    Since our country has been around, our national debt is $22 
trillion and growing. Just their two main proposals that they 
are campaigning on in New Hampshire and Iowa, and now South 
Carolina costs more than $120 trillion.
    The American people are onto you. That is why you won't 
file a budget. We serve on this Budget Committee. I want to see 
your values, if you have them.
    So, Mr. Vought, don't you think that this Committee should 
present a budget and pass it so it can go on to the floor of 
the House?
    Mr. Vought. I do. It honestly saddens me that--to the 
extent that the House of Representatives have stopped doing 
budget resolutions. When I was serving in this important body, 
that was something that was a staple every year, that majority 
and minority would put forward alternatives. They would have it 
debated in March, and we would be able to see where do the 
members of this chamber put their values.
    Mr. Smith. We need to see the values.
    I want to tie on to something that was asked to you in the 
prior questioning about preexisting conditions. The President 
was very clear. He is very clear every time he speaks at a 
rally that he wants to protect preexisting conditions. Just 
because you want to repeal Obamacare and replace it with 
effective health care legislation, you can do that, and we will 
do that by protecting people with preexisting conditions. It is 
not an all-or-nothing approach. We want to get rid of the 
garbage of Obamacare, and replace it with a great health care 
plan that protects preexisting conditions.
    Thank you for being here.
    Chairman Yarmuth. The gentleman's time has expired, and I 
now recognize the gentleman from New York, Mr. Higgins, for 
five minutes.
    Mr. Higgins. Thank you, Mr. Chairman. Just for the record, 
there is only one federal law that protects people with 
preexisting conditions, and it is the Affordable Care Act. The 
President is trying to gut the Affordable Care Act through the 
federal courts. And, if he succeeds, there will be no law 
existing that protects people with preexisting conditions. That 
is a fact.
    Sir, in 2017, with the Tax Cuts and Jobs Act, we were told 
in a letter by the White House Council of Economic Advisers 
that the result of that action would yield $4,000 to $9,000 per 
American household on a recurring basis. Has that occurred, and 
will it occur?
    Mr. Vought. Since the President took office, we have had 
$6,000 in disposable income for families, on average. So far, 
just from the tax cuts, only a few years into it, we are at 
$2,000 of disposable income. That is a substantial savings of 
people allowing to--being able to keep their own hard-earned 
money----
    Mr. Higgins. Wait----
    Mr. Vought [continuing]. to invest in their----
    Mr. Higgins. Is it $6,000 or $2,000?
    Mr. Vought. It is--$6,000 is the disposable income from the 
economic agenda and the economic boom of this President since 
he took office.
    Mr. Higgins. I don't understand what that means.
    Mr. Vought. I am trying to explain it to you. It is 6,000 
since the President took office.
    There are many things that is contributing to the economic 
boom that we have--are seeing, everything from the deregulatory 
initiative to, you know, investment confidence in the economy. 
These are leading to real results in people's pocketbooks.
    Of the tax cut alone, $2,000 is what has materialized thus 
far, and we believe it is going to get up to the $4,000 level, 
for sure.
    Mr. Higgins. What about the four to nine recurring every 
year?
    Mr. Vought. We believe that there will be significant 
savings along those lines in----
    Mr. Higgins. I don't believe you.
    Mr. Vought [continuing]. in American families----
    Mr. Higgins. I don't believe you.
    Mr. Vought [continuing]. pocketbooks.
    Mr. Higgins. I don't believe you.
    We were also told that these tax cuts would pay for 
themselves. Are they paying for themselves?
    Mr. Vought. We are on track for the economic agenda of this 
President to pay for the cost of this tax cut. And that is the 
fully loaded cost of both the original score from CBO, that is 
the cost of the extension, and that is the debt service cost.
    Mr. Higgins. Are you familiar with the economist Mark 
Zandi?
    Mr. Vought. I am.
    Mr. Higgins. Would you characterize him as a conservative 
economist?
    Mr. Vought. Not really.
    Mr. Higgins. Who did he--did he advise a Democrat's or 
Republican's Presidential campaign?
    Mr. Vought. You tell me, Congressman.
    Mr. Higgins. John McCain. He is generally viewed as a 
credible conservative economist with Moody's Analytics. He had 
said that the tax cuts of 2017, for every dollar that you give 
away, you can hope to reclaim $.32. That is a 68 percent loss 
on investment.
    So tax cuts don't pay for themselves. And because tax cuts 
don't pay for themselves, we went from an annual budget deficit 
of $600 billion to more than $1 trillion. And it is projected 
that we will take in $1 trillion less than we spend for this 
year, and the out-years moving forward.
    Under--because tax cuts don't pay for themselves, in the 36 
months of this presidency there has been an increase in $3 
trillion to the national debt. That is because tax cuts don't 
pay for themselves.
    Because tax cuts don't pay for themselves, you have a 
Medicare cut of $756 billion over 10 years. You have a Social 
Security cut of $24 billion. You have a Medicaid cut of $920 
billion. Cancer research has been cut. The Community 
Development Block Grant program has been eliminated. The 
National Endowment for the Arts and Humanities has been 
eliminated. Low-income energy assistance has been eliminated. 
Educational grants have been eliminated.
    Let me just also--you brought up infrastructure. Your 
infrastructure program is weak and pathetic. The President 
promised a $2 trillion infrastructure bill. What we need to 
do--that is equivalent, in the last 10 years, to what we spent 
rebuilding the roads and bridges in Iraq and Afghanistan. Those 
nations are approximately 35 million people. Everything we 
build for them, they destroy. We should nation-build at home. 
So I would encourage you to encourage the President to fulfill 
the obligation that he made to do a $2 trillion infrastructure 
bill.
    And it is not just the bricks and mortar of infrastructure, 
it is the growth that would occur, because the same economist 
that I had referred to before, Mark Zandi, a conservative 
economist, had said that, for every dollar that you spend in 
infrastructure, you can expect to recapture in future economic 
growth about $1.60. The return on investment for infrastructure 
investment is about 60 percent.
    I would encourage you to review the infrastructure proposal 
here and consider making changes.
    With that I yield back.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Utah, Mr. Stewart, for five 
minutes.
    Mr. Stewart. Thank you, Mr. Chairman and Acting Director. 
Thank you for being here. Thank you for what is clearly a tough 
job.
    I am going to wax poetic here for a minute. I am going to 
quote something, and I think everyone here will recognize it. 
This is from a great president, Theodore Roosevelt. He said, 
``It is not the critic who counts, nor how the man points out 
how the strong man stumbles or where the doer of deeds could 
have done better. The credit belongs to he who is actually in 
the arena.''
    For heaven's sakes, it is easy to sit upon this dais and 
criticize an effort. But if you are not doing that thing 
yourself, then you have no position, you have no authority in a 
real way to criticize the effort of this President if you don't 
have a budget, you haven't stated your values.
    Again, it is easy to sit up here and to criticize and peck 
like a chicken along the ground. But that is all you are doing, 
because you haven't done the work. You are not in the arena 
saying what you all would do. You are just sitting on the 
sidelines and saying--and criticizing what others have done.
    You know, there is one other thing. The budget, it is a 
serious effort. It should be bipartisan, at least as much as it 
can be. And I get it. I understand that there is a debate over 
these issues, and there always has been, and there probably 
always will be. We all, I think, can agree that we are trying 
to do the same thing. We are trying to provide for our national 
defense, for equal justice, and for the common good.
    And again, I get it that the debate over those details can 
be contentious. But when the language is so over the top, and 
it is so contentious, most Americans don't believe it.
    If you accuse the President of actually targeting senior 
citizens, as if he hates them and wants to deliberately hurt 
them, most Americans don't believe that.
    If you accuse the President of targeting the poorest and 
the most vulnerable among us, as if the President hates them 
and actually wants to deliberately hurt them, most Americans 
don't believe that.
    And when you couch every detail or every disagreement as if 
it is a lie, or as if it is pathetic, most Americans think that 
is incredibly divisive, and they don't accept it. And that is 
much of what we have heard here today.
    From those who won't do the work themselves, who sit on the 
sidelines and criticize, and say things that are so over the 
top and outrageous, most Americans think, ``I don't think that 
sounds true to me. I don't think the President actually wants 
to hurt the poor and the elderly.''
    Now, maybe if you just hate the President so badly you 
actually believe that stuff, there is a few people who do that. 
Some of them are sitting up here. But most Americans don't feel 
that way.
    I would like to ask you something now regarding--and I 
think this is a key to most of what you are presenting here 
today. We spend $800 billion annually on more than 90 anti-
poverty programs. What is the measure of success? How do we 
know if we are doing a good job at that? Is it by how much 
money we spend? Have we done better if we enrolled more and 
more and more people on these programs? Or is it better for us 
to measure that by saying, ``Hey, you know what? We have 
provided jobs for people. We have provided an access for them 
into the middle class, lifting them out of poverty, and then--
and allowing them a ladder forward.''
    Mr. Vought, what do you think? How should we measure the 
success of these programs, this $800 million that we spend?
    Mr. Vought. Yes, we believe in outcomes. We believe in 
measuring what we are doing, based on the results that they 
have, as opposed to figuring out how much from year to year we 
are spending as a dollar amount. Washington, DC. far too often 
wants to just say what is the dollar amount, and makes that the 
sacrosanct value for how you are doing with regard to your 
commitment.
    But I would take an example of education, for instance, and 
respond to an earlier question, and say we are providing $50 
billion in tax incentives for additional education at the state 
level, in addition to what we are providing for the Department 
of Education. We believe that is a reflection of our values, as 
well. But if you look at it from a green eyeshades perspective 
here in D.C., it is just a revenue reduction. And it is 
anything but that.
    Mr. Stewart. Well, and that is the point. And, you know, I 
think the success of these programs should be determined by 
Americans graduating off these programs, providing an economy 
where they have the dignity of work and the self-satisfaction 
that comes from improving their lives, rather than just the 
dependence on the federal government, sometimes generational.
    And my time is almost up. And now we will continue with 
those who, again, aren't in the arena, haven't put a budget 
forward themselves, and they will continue to criticize you and 
the President for the work that you have done. But we are 
grateful for that. And the American people are very grateful, 
as well. Thank you.
    I yield back.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Pennsylvania, Mr. Boyle, for five 
minutes.
    Mr. Boyle. Thank you to the witness for being here. And 
thank you, Mr. Chairman. Here we go again.
    A couple of years ago, three years ago now, we sat here 
debating the massive Republican tax cut. A number of us on this 
side of the aisle pointed out that this was actually step one 
in a three-step plan.
    Step one, cut taxes, mostly for the top 1 percent to the 
tune of $1.5 to $2 trillion.
    Step two, that would, of course, spike the deficit, spike 
the debt.
    And then, step three, this White House and our Republican 
friends would come back, say, ``My God, there is a deficit and 
a huge debt problem, we need to cut Social Security, Medicare, 
and Medicaid.''
    Step one happened, the massive Trump tax cut, 83 percent of 
which went to the wealthiest 1 percent, was passed.
    Step two is happening. We have the fastest-growing deficit 
in an expanding economy in American history.
    And now, here we are with step three, massive cuts to 
Social Security, Medicare, Medicaid, education, SNAP, 
transportation funding, et cetera.
    I want to focus, since a number of my colleagues have 
focused on the massive cuts to Social Security, Medicare, and 
Medicaid, since I am co-chairman of the Public Service Loan 
Forgiveness Program Caucus, I do want to focus on that program, 
specifically.
    But first, before I get to that, just in terms of student 
loan spending, generally, let me read from a report from CNBC 
just yesterday: ``As student debt continues to climb, President 
Trump on Monday released a budget for 2021 that would slash 
many of the programs aimed at helping borrowers. Student loan 
spending would be cut by $170 billion in Trump's plan.''
    One of those areas that would be cut--forget cut, 
eliminated--is the Public Service Loan Forgiveness Program. 
This was a bipartisan achievement, actually signed into law in 
2007 by George W. Bush. How in the world does cutting student 
loans by $170 billion, and eliminating the Public Service Loan 
Forgiveness Program in any way help families afford and pay for 
college? Bearing in mind that, right now, we just hit the 
overall mark of $1.7 trillion in total debt, in terms of all 
the student loans owed by every American combined. That is a 
major threat to our economy.
    So here is a budget that would take that situation and make 
it far worse.
    Mr. Vought. It is totally untrue, Congressman. This budget 
has $170 million----
    Mr. Boyle. Reclaiming my time, the CNBC report is untrue 
about cutting $170 billion?
    Mr. Vought. There are savings for $170 billion from 
consolidating----
    Mr. Boyle. Savings, savings.
    Mr. Vought [continuing]. programs into one new program.
    Mr. Boyle. Most normal Americans would call it a cut.
    Mr. Vought. No, because we are replacing it with an income-
driven debt repayment plan over 15 years----
    Mr. Boyle. So----
    Mr. Vought [continuing]. over 30 years for----
    Mr. Boyle. Reclaiming my time, since we are time-limited, 
for those at home, any time anyone from Washington talks about 
savings, hold onto your wallet. The savings are coming from 
you.
    Let me specifically focus, though, back to the Public 
Service Loan Forgiveness Program. I mentioned that I am co-
chair. I have a Republican co-chair, Mr. Joyce of Ohio. This is 
a program that has had bipartisan support going back to its 
beginning in 2007. Why did you decide to just flat-out 
eliminate it?
    Mr. Vought. Because we don't want to pick winners and 
losers. And we were replacing it with an income-driven 
repayment plan that the President has had in every single one 
of his budgets that he ran on with the American people----
    Mr. Boyle. Reclaiming my time, reclaiming my time, what do 
you think this will do to those who have decided to enter 
public service, who forego higher salary in the private sector, 
have taken on a ton of student debt, and now here you are 
eliminating the loan forgiveness program that they signed up 
for?
    Mr. Vought. They would be eligible for the new program that 
the--this budget and this Administration has been proposing for 
four years.
    Mr. Boyle. So, finally, with just 30 seconds left, let me 
say, yes, it is true, a budget is a statement of one's 
priorities. We see the priorities of this Administration: 
massive tax cuts for the wealthiest 1 percent paid for by cuts 
to ordinary Americans.
    I yield back.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Texas, Mr. Flores, for five 
minutes.
    Mr. Flores. So thank you, Mr. Chairman.
    Mr. Vought, you didn't really have a chance--or Director 
Vought, you didn't really have a chance to respond to the 
questions regarding the student loan program. Would you like to 
expand so that the American people get the true story of what 
the President is proposing, in terms of coming up with a more 
efficient, more fair student loan program?
    Mr. Vought. I would be happy to. This Administration, this 
budget has put forward an income-driven student loan repayment 
plan that would allow students, after 15 years, to have debt 
relief. But in that 15 years they would pay a set amount of 
their monthly income toward debt repayment at 12.5 percent of 
their income for 15 years. And for graduate students, it would 
be relief after 30 years.
    We consolidate a number of programs to be able to provide 
that program, and we think it will lead to more simplicity for 
student borrowers. So instead of having many different programs 
out there, and trying to figure out what is the best one for 
them, we would have the--an opportunity to have one simple 15-
year debt relief plan for students. This is what the President 
ran on. It has been in every one of his budgets.
    Mr. Flores. Right. And so, in this particular situation, to 
address the claims that were made by the last questioner, if 
you had somebody that decided to go into public service and 
selected, you know, at a lower income level, then in that 
particular situation this loan repayment plan would 
automatically address that, wouldn't it?
    Mr. Vought. They would be eligible for this new plan.
    Mr. Flores. OK. And one of the things that the President 
has proposed in his budget, and I think it is pretty wise, 
because all the health care providers in my district, 
particularly the hospitals, have talked about the shortage of 
medical professionals. And so the President's budget proposes 
to move--to pull graduate medical education out of the Medicare 
part of the budget.
    Can you explain the logic for that? Because it sounds 
perfectly reasonable to me, based on what I am hearing from 
real-world America.
    Mr. Vought. Sure. This is an example of where the--we are 
going to still commit to graduate medical education, but we 
don't want the Medicare Trust Fund to be drawn down from it. We 
don't want it to increase the insolvency of Medicare, as a 
result of a program that benefits far beyond today's seniors, 
and it helps a vast majority of the country and hospitals 
across the nation.
    So this is an example where we take it out of Medicare, and 
we allow it to grow each and every year, just not at the same 
level of Medicare and--medical inflation.
    Mr. Flores. OK. And then you have done the same thing with 
uncompensated care, as well.
    And so the net result of both of these is to strengthen the 
Medicare Trust Fund, is that correct?
    Mr. Vought. Absolutely.
    Mr. Flores. So Americans that are on Medicare or near 
Medicare are actually better off because of this, because the 
President has taken two things that aren't really part of 
Medicare and pulled them out, and allowed Medicare to be more 
self-sustaining.
    So, I guess, you know, one of the things you hear is that--
this word ``cuts'' a lot. So the--what is the Medicare spending 
level in the tenth year, versus the nearer year in the 
President's budget?
    Mr. Vought. Medicare will grow 6 percent, on average, each 
and every year in this President's budget.
    Mr. Flores. OK.
    Mr. Vought. There is no cuts to Medicare, whatsoever.
    Mr. Flores. OK. So ``grow'' is not a cut. And so, to the 
extent that anybody uses the word ``cut'' when the dollars are 
higher in the out year than they are in the near year, then 
they are just--they are not being truthful with the American 
people. Is that correct?
    Mr. Vought. That is correct. And we extend the Medicare 
Trust Fund solvency by at least 10 years. We do have 
assumptions that provide for lower prescription drugs. We 
thought that that was a bipartisan priority to have better 
health care at lower costs. And we just don't think that is a 
cut.
    Mr. Flores. Director Vought, thanks for your answers to set 
the record straight on these important issues, and I yield back 
the balance of my time.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from California, Mr. Khanna, for five 
minutes.
    Mr. Khanna. Thank you, Mr. Chairman. Representative 
Langevin yesterday at HASC asked for people to testify about 
the President's defense budget. He was told that witnesses had 
been directed by you, explicitly, not to speak to the 
President's budget requests. This has never happened in the 
history of Congress, whether it was President Reagan, President 
Bush.
    Can you explain why you gave an illegal directive 
obstructing Congress to tell witnesses not to testify?
    Mr. Vought. I didn't.
    Mr. Khanna. Are you claiming that your office did not give 
that directive?
    Mr. Vought. We typically like to have this OMB testimony be 
the first testimony, so that may be what you are referring to. 
But in terms of not allowing agency heads to speak about the 
President's budget, that is not true.
    Mr. Khanna. So it is your testimony that you completely are 
OK with having agency heads testify, and that the witnesses 
yesterday, if they implied that you or OMB had instructed them 
not to do so, are lying?
    Mr. Vought. Not lying. My gut is that they are reflecting 
the reality that we want the OMB testimony here in the House 
Budget Committee to be the first set of testimony on behalf of 
the President's budget, and then to let agency heads go from 
there. That is my guess is what they were referring to.
    But the idea that we would not want agency heads to go to 
the Hill and talk about the President's budget is not true.
    Mr. Khanna. Did you tell them at any time that--not to talk 
to the committees until you did?
    Mr. Vought. I am sure we had communication with agencies 
along those lines, but I certainly didn't. I am sure, like, as 
I have said, we provide guidance to agencies that says we don't 
want agency heads to go up to the Hill until we have an 
opportunity to come before this Committee.
    Mr. Khanna. For going forward, now that you have, you will 
be completely fine with agency heads going to----
    Mr. Vought. Of course. It is a vital aspect of this 
process.
    Mr. Khanna. In terms of the President wanting to lower drug 
costs, what is your view on H.R. bill 3, and whether that would 
do that?
    Mr. Vought. We have concerns with that piece of 
legislation. We put out a statement of Administrative Policy 
against it. We appreciate the desire, the intent to lower drug 
prices. But our Council of Economic Advisers looked at that 
piece of legislation and said it would lead to shutting down a 
third of the innovated drugs that are in the pipeline.
    CBO didn't have numbers quite as large as that, but they 
also said that there would be an impact on innovation.
    So, look, we want to get to the same place that you all 
are, in terms of lowering prescription drugs. We would love to 
have a bill on the President's desk. This is one of the areas 
of bipartisan work that we would want to endeavor to pursue.
    It is one of the reasons why we have had, in this budget--
in years past we provided a lot of specificity. In this budget 
we provide a general allowance to be able to have the House and 
the Senate work its will with us not providing new proposals 
that might impact that----
    Mr. Khanna. Does the President have a plan? I mean he is 
rejecting our plan. Has he offered a plan of what he would 
support?
    Mr. Vought. We have certainly offered plans in the past, 
things like having a price cap in Medicare Part B, reforming 
the Medicare Part D plan to put a catastrophic cap for seniors, 
and to change some of the disincentives. Some of those 
proposals are reflected in H.R. 3.
    But we are very concerned to the extent that we don't want 
to fall on the other side of the balance of impacting 
innovation. And I would just say, as the father of someone 
that--of a child that has cystic fibrosis, is about to go onto 
medication that is disease-halting, that kind of ground-
breaking, innovative prescription drugs is what we want to make 
sure that future kids, families, and seniors----
    Mr. Khanna. Well, we all----
    Mr. Vought [continuing]. have access to in the future.
    Mr. Khanna. I think we all want to do that.
    On infrastructure, there has been a sense that the 
President wants to work with us. We have gone, the Speaker has 
gone, the Senate leader has gone, they agree on doing an 
infrastructure bill, and then two days later nothing happens 
because there is no agreement by the President on how to pay 
for it.
    We are going to be working on an infrastructure bill that 
the House Democrats will propose. Will the President be 
committed to actually passing it and offering pay-fors through 
the Senate?
    Mr. Vought. Congressman, I think your question actually 
reveals the problem with where we are on infrastructure, which 
is that we want to pay for it by providing spending cuts and 
reforms.
    You all, every time we try to have a conversation about 
infrastructure, the expectation is that we are going to roll 
back the President's tax cut. We are not going to do that. We 
are not going to have anything that raises taxes on this 
economic----
    Mr. Khanna. Let me ask one final, quick followup. Why 
wouldn't you be willing to just fund infrastructure, which 
actually would lead to 3 percent economic growth?
    I mean why are you--you didn't have all pay-fors on your 
tax cuts, and the economists agree infrastructure actually 
would lead to growth. So why doesn't the President just commit 
he is going to do a infrastructure bill?
    Mr. Vought. He has committed to doing an infrastructure 
bill. There is a $1 trillion infrastructure package in this 
budget resolution. It is--continues to be a priority. And we 
put forward savings along those lines, because infrastructure 
has been something that has been paid for.
    But we are providing $4.4 in spending reductions and 
deficit reduction that could be used for potential pay-fors.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from South Carolina, Mr. Norman, for 
five minutes.
    Mr. Norman. Thank you, Mr. Chairman.
    Mr. Vought, thank you for appearing today. You know, some 
of these comments I have sat here and listened to the last 45 
minutes are really amazing. One that caught my eye was that my 
friends from the left are saying, ``blueprint for financial 
disaster.''
    Do you live in a house?
    Mr. Vought. I do.
    Mr. Norman. What if I--and I am a contractor. I am a 
builder. We build things. I am probably a deplorable, I drive 
pick-ups, bibles, guns we cling to.
    What if I came to you and said I want to build you a house. 
What would you ask for?
    Mr. Vought. How much?
    Mr. Norman. And a blueprint. I couldn't come to you and 
just say, ``I want to build you a house.'' You would say, 
``Where are the plans? Where is the blueprint?''
    Congressman Stewart is an accomplished pilot. What if I 
came to him and just said, ``I want you to learn to fly a 
plane.'' He would have a right to say, ``What kind of plane? 
Give me some''--``No, I just want you to fly a plane.'' That is 
what my friends from the left are asking the American people to 
believe. We haven't had a budget in two-and-a-half years.
    Let me tell you some other things. You know, they are 
proposing free medical care. Put it on paper. What is the cost? 
Unless doctors are willing to work for free, which I don't 
think they are.
    Free college education has been mentioned. Are professors, 
particularly tenured professors, not going to get a salary? Put 
it on paper, and let's see what it costs.
    Free housing I have heard. Put it on paper, and see what it 
costs. Somebody has to pay for it.
    Open borders. Is one of the cuts--and I just heard this 
yesterday--one of the cuts that my so-called friends to the 
left are saying is that if you come into this country and can't 
speak English, then you are disabled. Have you heard that?
    Mr. Vought. It is one of the qualifying factors right now 
within the disability insurance program that we are trying to 
reform.
    Mr. Norman. How dumb is that? If you can't come into this 
country and speak English, you are entitled to all the benefits 
of this country because you can't speak the American--you can't 
speak English. The American people are onto it, and they get 
it.
    Tax cuts don't pay for themselves. I think we have got a 
growing economy that has--the likes we haven't seen in--since 
this President took office. The previous eight years can't 
boast the numbers that we are boasting. All that--tax cuts 
don't pay for themselves? All that is is code language for 
taxpayers are too dumb to spend their own money. Let unelected 
bureaucrats and my liberal friends spend it for you. That is 
why you hear the Socialist programs that are coming up.
    So I applaud you for defending this budget. You have at 
least got a budget. And I would ask the--you know, for us, we 
have got 60-some days to come up with a budget on paper. Defend 
what you are promising the American people, which they are 
simply not doing.
    Could you go into some more--you haven't been allowed to 
finish many of your answers. Could you elaborate more on some 
of the--they are claiming, as they always do, cuts in Social 
Security, gutting Medicare, gutting Medicaid. Can you go into 
some more examples of where this just is untrue?
    Mr. Vought. Sure. There is just no cuts to Social Security 
and Medicare. The President's commitment to seniors is fully 
reflected in this budget.
    We reform Medicare. It grows at 6 percent. What we mean by 
reforms, though, is lowering the cost of health care, $135 
billion in savings in prescription drugs from--lower costs to 
seniors. That shows up as a savings, but it is not a cut in any 
way.
    Mr. Norman. But they classify it as a cut, because they 
don't want anything to change. That is why they are not putting 
it on paper, having a budget.
    The military, what--go into some of the dollars where it is 
being spent, because this is something really to brag about 
from the Trump Administration.
    Mr. Vought. Fourth year of high defense spending, $741 
billion, fully consistent with the budget agreement that was 
recently passed. Within that top line we have a 20 percent 
increase to the NNSA to make sure nuclear modernization 
continues to be going forward on track. So we really went big 
in that area.
    We continue to have 44 new ships over the next five years 
with the defense program.
    We invest heavily with regard to R&D, to make sure some of 
the concerns--to be able to compete with our adversaries--are 
fully funded.
    So this continues what the President promised to the 
American people to rebuild our defenses. And that will--we are 
not--we want to make sure those continue to grow up in the out 
years.
    Mr. Norman. It is called looking after the taxpayer's 
dollars. You are looking at them, and looking at everything as 
a return on investment. What is the taxpayer getting for the 
dollars that he is putting in?
    Well, I applaud you for it. I don't think, as has been 
implied, granny is not going over the cliff. What we are going 
to do, though, if we don't get a hold of this $22 trillion 
deficit, which is the cruelest tax on future generations, then 
we are leaving our children and grandchildren over a cliff. It 
is unfair, it is un-American.
    And thank you for what you are doing for this country, and 
we appreciate it.
    I yield back.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from North Carolina, Mr. Price, for 
five minutes.
    Mr. Price. Thank you, Mr. Chairman.
    Mr. Director, welcome to the Committee. I want to ask a 
quick question first to clear up a little of the rhetoric we 
have heard this morning, but then turn to a more substantive 
inquiry.
    The last year our Republican friends were in the majority--
that would be 2018--did they or did they not bring a fiscal 
2019 budget resolution to the House floor for a vote?
    Mr. Vought. I don't recall, Congressman.
    Mr. Price. The answer is no. The answer is no.
    It is critically important that we all recognize the 
influence that OMB has, not only over the President's budget 
requests that are sent to the Congress, but over the 
administration of funding that is provided by the Congress. 
That is what I want to ask you about. I want to ask you about 
important investments in infrastructure and disaster assistance 
that Congress has enacted and the President signed into law 
regarding Puerto Rico and other areas devastated by natural 
disasters.
    Congress has already registered its frustration with the 
Department of Housing and Urban Development over repeated 
missed deadlines and a refusal to move this much-needed funding 
out the door. But this isn't just about HUD, as HUD officials 
have been very quick to tell us. It is also about OMB.
    As the Director of OMB, you are responsible for the prudent 
execution of these plans. And, in fact, you are required by law 
to make sure the funds are made available to HUD. So I want to 
ask you two related questions.
    First, why the demonstrated need for this funding in Puerto 
Rico and the Virgin Islands, and your statutory mandate to 
provide these funds to HUD, has OMB refused to apportion the 
funding as immediately available for obligation?
    And second, HUD has provided testimony saying that OMB has 
purported to curtail their ability to even request this funding 
be made available to HUD. Is this true? Have you done this at 
the President's direction with regard to Puerto Rico?
    OMB has no authority in law or anywhere else to control 
what an agency requests in the first place. Do you really 
disagree with that?
    Mr. Vought. Congressman, with regard to Puerto Rico, $90 
billion is projected to be spent to help the people of Puerto 
Rico recover from the hurricanes from a few years ago. Given 
the situation politically in there, in that territory, where 
there is rampant corruption, you had an administration that had 
to resign, a Governor that had to resign because of 
corruption----
    Mr. Price. Excuse me, but we do have an inspector general's 
report. We don't have to just rely on your word for it.
    And is it not true that, actually, the finding came up that 
the administering agency in Puerto Rico was not rampant with 
corruption? Quite the contrary, they operated according to 
normal procedures.
    Mr. Vought. You are suggesting there is no corruption----
    Mr. Price. Anyway, that is not what I am asking you.
    Mr. Vought [continuing]. in Puerto Rico?
    Mr. Price. I am not asking you for your personal judgment 
about the Government of Puerto Rico. I am asking about your 
authority and the way you have exercised your authority. So 
these are very specific questions.
    Mr. Vought. Sure. We operate with agencies on things like 
funding notifications. In this case, with CDBG, we had to 
implement the statute, which has never been authorized by 
Congress. So Congress set up a new--appropriated a new statute 
for mitigation funding, and then just left the agency on its 
own and said, ``Go implement it however, without any 
instruction from Article I''----
    Mr. Price. I am sorry, there are many, many programs that 
aren't authorized. That is a red herring.
    Mr. Vought. Not new ones at that level.
    Mr. Price. This--we need a CDBG-DR authorization, and we 
are hoping that our friend, Mitch McConnell, will agree with 
that. We have passed it herein the House.
    But my question has to do with the testimony--let me just 
move directly to that--the testimony of HUD that you haven't 
even authorized them to request the funding. This is duly 
appropriated funding, a bill signed by the President.
    Mr. Vought. We are apportioning everything that HUD needs 
to be able to move forward with the CDBG funding. We provided 
the initial $1.5 billion that was tranched out, and then 
another $8.2 billion for unmet needs. We are working on getting 
the grant agreement done right.
    And here is the issue, Congressman, is that we don't want 
this money to go to waste. We want it to actually help the 
people of Puerto Rico. We want to make sure that they don't all 
get it one lump sum, and it overwhelms their political system, 
where they had a Governor that had to resign from corruption, 
and where FEMA finds undistributed disaster----
    Mr. Price. Has anybody----
    Mr. Vought [continuing]. assistance in a closet.
    Mr. Price [continuing]. remotely suggested you should 
simply hand the money over in a one lump sum?
    Mr. Vought. Well, your question suggested it.
    Mr. Price. No, it doesn't suggest that. These are in 
tranches, and there are deadlines. There are statutory 
deadlines, it turns out. When deadlines were missed, we put 
them in statute. There are ample, ample opportunities, 
checkpoints for the--for judgments to be made about letting 
this tranche or that go forward. That is not what I am asking 
you.
    I am asking you about the--what the HUD people tell us, 
that they have had trouble even getting authority to request 
the money from OMB. And that--and I am looking for what your 
authority is to do that.
    Mr. Vought. Yes, I am not going to get into the 
deliberative process between agencies that work together----
    Mr. Price. I am asking you for--I am not asking about your 
deliberative process. I am asking about where this authority 
comes from.
    Mr. Vought. It comes from our apportionment statutes, the 
ability to make sure that money is spent efficiently and 
economically, to make sure that there are spend plans in place. 
And it comes from our authority to consider, when there are 
notifications, to be able to have new regulatory pronouncements 
that go out, to make sure that they go through a rigid, fact-
based process.
    Mr. Price. Mr. Chairman, I am going to ask, for the record, 
a detailed account of your answer to my question, with the 
citations of the authorities you are talking about.
    Mr. Vought. Sure, I would be happy to.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Texas, Mr. Roy, for five minutes.
    Mr. Roy. I thank the Chairman.
    Mr. Vought, thank you for being here. Thank you for 
representing the President, and trying to stand up to actually 
put us on a path to some sort of fiscal responsibility and 
getting us a balanced--a budget that balances, while, 
unfortunately, my Democrat colleagues want to sit and 
pontificate, and actually do nothing, produce no budget, and 
not actually do their job. So thank you, Mr. Vought, for being 
here. I appreciate it.
    Mr. Vought, is Secretary Mnuchin testifying this afternoon 
in the Senate in front of Senate Finance?
    Mr. Vought. He is.
    Mr. Roy. Yes. So isn't it always the case that that process 
starts after you come and start this process off here at OMB?
    Mr. Vought. It does.
    Mr. Roy. Yes. Nothing to hide there, right?
    Mr. Vought. Nothing to hide.
    Mr. Roy. You know, let me ask you this question. Do you 
know who said the following just this week: ``Debt doesn't seem 
to matter as much right now. Right now it is not an immediate 
concern. The size of the debt does not poll well. I don't see 
how that is a potent political issue.'' Do you know who said 
that this week?
    Mr. Vought. I have a suspicion, but I would rather you 
answer the question.
    Mr. Roy. The Chairman of this Committee said that this 
week, as quoted by Chad Pergram on FOX News.
    Do you, on behalf of the President, agree that debt does 
not matter?
    Mr. Vought. Absolutely not, and I think this is one of the 
things that these budgets are meant to have a debate with the 
country about, is that debt and deficits do matter. Washington, 
DC. has been borrowing recklessly because of spending. I have 
heard you in this Committee speak to the level of spending as a 
percentage of GDP compared to where revenues are as a 
percentage of GDP. This budget would maintain revenues at their 
post-World War II historical average.
    The problem is on the spending. We need to get a handle on 
where we are spending. The easiest thing in the world would be 
to say that debt and deficits don't matter, that we don't want 
a balance. But we actually say we are going to balance in 15 
years.
    Mr. Roy. The national debt is $23.2 trillion and growing?
    Mr. Vought. It is.
    Mr. Roy. We are racking up about $110 million of debt per 
hour. Is that roughly correct?
    Mr. Vought. That is roughly correct.
    Mr. Roy. Right. So we are going to rack up another $200 or 
$300 million in here, while my Democrat colleagues demagogue, 
instead of actually producing a budget?
    Mr. Vought. Yes.
    Mr. Roy. Chairman Yarmuth this morning said something in 
the zip code of he is confident that Congress will stand firm 
against the President's budget.
    Let me just say on this I think the Chairman is most 
certainly correct. And that is unfortunate, that we are not 
going to start with the President's budget and try to work with 
the President's budget to actually do our job. That is 
unfortunate. Congress always stands against any attempt 
whatsoever to spend responsibly.
    And let me just be clear: This is a bipartisan problem.
    Let's look at this. In 2017, with respect to the 
President's ask, did Congress spend more than what the 
President asked for in 2017?
    Mr. Vought. Yes.
    Mr. Roy. Did you all send up a budget that had a 10-year 
balanced proposal in 2017?
    Mr. Vought. Yes.
    Mr. Roy. And was it effectively laughed back to the other 
end of Pennsylvania Avenue from this body?
    Mr. Vought. It was not adopted.
    Mr. Roy. In 2018 was the President's ask that--sent up, did 
Congress spend more and bust the caps?
    Mr. Vought. Yes.
    Mr. Roy. In 2019 was the President's ask honored, or did 
Congress spend more and bust the caps?
    Mr. Vought. Congress spent more.
    Mr. Roy. In 2020, with respect to the President's ask, did 
Congress spend more and bust the caps by a lot?
    Mr. Vought. We spent more than the original budget that the 
President sent up.
    Mr. Roy. And reset the caps last summer, and spent to those 
higher cap levels?
    Mr. Vought. That is correct.
    Mr. Roy. So, to be clear, do you agree this is a bipartisan 
problem, if you look at that entire four years, that Congress 
has not been effectively doing its job to spend appropriately?
    Mr. Vought. I do.
    Mr. Roy. Let's talk about economic growth and taxes. And 
you referred to it.
    I asked the CBO Director in this room two weeks ago whether 
or not we will be maintaining revenue as a percentage of GDP at 
roughly the 17.4 historic rate, and he said yes. Do you agree?
    Mr. Vought. Yes, 17.2 percent under this budget.
    Mr. Roy. And, in other words, we have a spending problem. 
We do not have a revenue problem.
    Whatever the Democrat colleagues want to say about 
bloviating about tax cuts for the rich, the fact is we have 
revenues to the Treasury that are consistent with historic 
norms, and will for the next decade. Yet my Democrat colleagues 
want to demagogue about spending, and continue to spend more 
than we have. Is that correct?
    Mr. Vought. That is correct.
    Mr. Roy. And so the key question--here is the fiscal 
policy--that is tax policy and regulatory policy that will free 
up the American people to produce.
    Let me ask you this. With respect to the budget that you 
put forward, we project 68 percent debt-to-GDP by the end of 
the decade. Correct?
    Mr. Vought. We project--under this budget we would go down 
to 66 percent as a percent of GDP.
    Mr. Roy. But that relies on 3 percent economic growth.
    Mr. Vought. It does.
    Mr. Roy. Right. But that is a laudable aspiration. Can we 
get out of the mess that Congress has created without economic 
growth?
    Mr. Vought. No. We--this is an all-of-the-above strategy. 
Economic growth needs to be maintained, deficit reduction 
through spending, restraint needs to be maintained.
    Mr. Roy. And you and I both know that my colleagues won't 
take this budget request seriously, right? They will tear it 
up, essentially like Speaker Pelosi tore up the state of the 
Union and threw it out with the daily papers.
    If we don't get a hold of the debt, the ball game is over. 
No money for defense, no money for homeland security, no money 
for Medicare, no money for Social Security. In the words of Don 
Meredith, ``Turn out the lights, the party is over.''
    Thank you for sending up a budget that we can actually 
start with. My Democrat colleagues should actually honor that. 
And let's work together to do the work of the American people.
    Chairman Yarmuth. The gentleman's time has expired. And I 
will take this liberty to say that that was my joke I used 
yesterday, that I tried to tear the budget in two. But thank 
you for reiterating my joke.
    [Laughter.]
    Chairman Yarmuth. I now recognize the gentleman from New 
York, Mr. Morelle, for five minutes.
    Mr. Morelle. Thank you, Mr. Chairman, for holding this 
hearing today, and thank you, Acting Director Vought, for being 
here to discuss the budget.
    Yesterday I received a copy of the budget, which has been 
titled, ``Budget for America's Future.'' Inside it, as far as I 
can tell--and we are just beginning to go through it--were 
countless proposals that, unfortunately, in my view, disregard 
the realities of our future.
    The budget--this budget, like all budgets, is a statement 
of priorities. But in my view, the priorities in this budget 
are to harm the present and future needs of families across the 
nation.
    And I apologize, I had to step out, so I didn't hear your 
testimony regarding savings. But, as I see it, there is a half-
trillion-dollar cut to Medicare, and a $900 billion--nearly a 
$1 trillion--cut to Medicaid, a reduction of food stamps, the 
Children's Health Insurance Program, which will jeopardize the 
livelihood and stability of millions of our vulnerable 
citizens.
    And, from my perspective, the stark reality is the budget 
leaves many people wondering what sort of education their 
children will receive, uncertain of where their next meal will 
come from. It lacks the kinds of investments that will make 
American stronger moving into the future. And investing in our 
families, investing in education, investing in infrastructure, 
I think, are the things that have always been my priorities, I 
think the priorities of this country.
    And I want to ensure that the values of my community are 
represented, and the voice of working families are heard.
    Last week I held a town hall, 500 senior citizens came. And 
most of them voiced their fears about the future of Medicare, 
and whether it would continue to provide support for them, the 
shortcomings of Medicare as it is. They talked about their 
struggles with prescription drugs. They talked about how health 
care costs continue to rise.
    I also spent time in the last two weeks visiting a number 
of senior citizen centers, and continue to hear in depth the 
real concerns and fear about the future. And so I am very, very 
concerned about this.
    I would like to ask--I apologize if I am asking you to 
repeat yourself--but to tell me how you see savings in 
Medicare, where I see cuts. Can you describe how you envision 
that? Because I don't see this at all. I don't see anything--
major reorganization, I don't see bending the cost curve by 
improving outcomes or improving patient experience, the things 
that we are all trying to do in health care, using social 
determinants.
    Could you just briefly? Because I don't have a whole lot of 
time, and I have a couple of other questions.
    Mr. Vought. I would be happy to, Congressman. Medicare will 
grow at 6 percent every year.
    One of the things that you mentioned in your question is 
that lowering the prescription--the cost of prescription drugs. 
That is something that we assume is a savings, compared to 
years past, that generates savings, even though it will benefit 
beneficiaries and lead to better outcomes, as you mentioned. 
That is $135 billion in this of savings, simply by lowering 
prescription drugs.
    Mr. Morelle. So in the prescription drug--are you prepared 
to authorize Medicare to negotiate lower prescription drugs, as 
is done in most of the industrial world?
    Mr. Vought. No. We have opposed H.R. 3. That is a proposal 
that we believe gets on the wrong side of the balance to be 
able to cutoff innovation that is currently in the pipeline.
    That said, we have proposed less specificity, even though 
past budgets have been very detailed in this space, because we 
want to work with Congress, and we hope that, between the House 
and the Senate, a bill can get to the President's desk.
    Mr. Morelle. Well, I will editorialize here that every time 
I am with folks and they ask about prescription drugs--and, as 
you know, this is a growing, alarming situation--every time I 
talk about--even if I don't mention it, but you talk about the 
federal government using its ability, economies of scale, and 
the force of Medicare to negotiate prices, people are struck by 
the idea that we don't do it already.
    Drug formularies and Medicaid, just about every commercial 
insurance program beg for this. And I just--for the life of me, 
I don't understand why the Administration--I think the 
President in the past has actually voiced support for using 
Medicare as a means of negotiating a lower drug price. I don't 
know what has changed. But, frankly, I think there has been 
very little leadership from the White House on this. And 
Americans, particularly senior citizens, are just crying for 
relief.
    If I can, let me just move to a completely different topic. 
My home district of Rochester, New York has dealt with what, in 
the past, would have been deemed 100-year floods every other 
year. In fact, I met yesterday with the chair of the American--
on the American side of the International Joint Commission. And 
we expect record flooding in the Great Lakes again this year.
    One of the things that we are really relying on is 
resiliency studies for the Great Lakes that we hope the U.S. 
Army Corps of Engineers will conduct. We have appropriated 
money, the appropriation bill that the President signed, to 
have funding for those resiliency studies. Yet I note in this 
budget that the U.S. Army Corps of Engineers and their ability 
to protect us and provide resiliency has their funding cut by 
22 percent.
    I wish you could comment on that, and how I can help assure 
people back home that the flooding that they have seen, which 
is at record levels, and we expect it to be again this year, is 
advantaged by significant cuts to the U.S. Army Corps of 
Engineers.
    Mr. Vought. We provided more spending for Army Corps of 
Engineers than last year's budget. It is something that we 
continue to have challenges in the sense that we want to 
provide the infrastructure that is necessary in this space, but 
we also have concerns with how long it takes Army Corps of 
Engineers to build projects.
    We want reforms in this area, and so our budgets have 
focused on making sure that projects that are in the--occurring 
already get done before we go on to new projects. We are trying 
to address the backlog.
    Mr. Morelle. Well, I will just issue this in my last--I am 
sorry, am I--I think I am over. I apologize, just to say this, 
that the amount--the hundreds of billions that you will end up 
spending in disaster relief, instead of providing much smaller 
amounts for resiliency, I think we will come to regret. So I 
certainly hope there will be added emphasis on resiliency. 
Obviously, I speak for the Great Lakes, but I know people 
around the country on waterways are concerned about that, as 
well.
    So thank you, I yield back my time.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Pennsylvania, Mr. Meuser, for five 
minutes.
    Mr. Meuser. Thank you, Mr. Chairman. Thank you, Colonel 
Womack, Republican leader, for holding this important hearing. 
Thank you very much, Director, Acting Director Vought, for 
joining us today.
    We all talk regularly about--very daily in this Committee 
and throughout the floor of Congress--about the unsustainable 
level of spending our nation is on. I greatly appreciate and, 
in fact, applaud the Administration and you for putting forth a 
budget that exercises fiscal restraint, focuses on rooting out 
waste, abuse, and fraud, eligibility requirements, as well as 
very targeted reforms, which we will discuss here, and focuses 
funding on some critical areas.
    As the former revenue secretary of the Commonwealth of 
Pennsylvania, we dealt with--we had to balance our budget each 
year, and we set forth on focusing on eligibility requirements, 
and over a two-year period saved over $300 million from a $26.5 
billion budget. That is about 1.2, 1.3 percent over a two-year 
period. If we did that on the federal government side, that 
would be over $400 billion over a two-year period, certainly a 
wonderful start toward an infrastructure and transportation 
funding bill.
    So thank you for the--putting your--the focus there.
    Also, the focus is on defense spending. All anybody on this 
Committee or in Congress has to do is go over to the Pentagon, 
whether you are Democrat or Republican, and hear from them 
about how far behind we have fallen in cyber security and 
space, dangerous areas to fall behind. And this budget 
continues that growth.
    The Department of Veterans Affairs, this budget funds in a 
strong way to--the Mission Act and the Blue Water Navy Act, 
which--and veteran suicide issues. So thank you for that.
    Skills training is extremely important for my state, my 
district, and for our country. The budget puts over $1 billion 
toward career and technical training to get more people to work 
for the 21st century jobs.
    And also block grants. I have a lot of experience here, 
too, the importance on how effective block grants can be. Most 
often states will gladly accept a small reduction in order to 
receive block grants so they can provide and have the 
flexibility to use the funding and dollars how they feel best 
for their state.
    Would you agree block grants provide enormous--more 
flexibility than the federal government would?
    Mr. Vought. Yes, absolutely. We allow states to have more 
control to design programs that are--achieve better outcomes 
for their citizens.
    Mr. Meuser. Certainly, thank you. Now, regarding waste, 
abuse, and fraud, relative to the enacted Fiscal Year 2020 
levels, your budget reduces non-defense discretionary spending 
by 5 percent. Is this reduction largely attributed to targeted 
reforms to reduce wasteful, ineffective, and duplicative 
programs, as well as innovation and overall fiscal 
responsibility?
    Mr. Vought. Absolutely. We find efficiencies where we can. 
We find duplication where we can. We find just outright waste 
where we can.
    I will give you an example. In cultural and state exchange 
programs, we have about a $400 million savings in that area. 
There were 80--there were over 80 programs in that particular 
space, and they have more than doubled since the 2000's. That 
is an example of--given the global world that we live in, do we 
really need such high levels of spending in that area, or can 
we just begin to ratchet it back?
    Or just clear waste, fraud, and abuse where you have got, 
you know, a professional cricket league in Afghanistan. Those 
are the kinds of things that lower top lines, allow you to get 
at and really root the waste and the abuse out.
    Mr. Meuser. That is great. Reforms, not reductions.
    Now, related to Social Security and Medicare, the 
President's budget does not cut or reduce Social Security and 
Medicare. That is accurate, correct?
    Mr. Vought. That is totally accurate.
    Mr. Meuser. And the benefits and savings will be realized 
through these reforms that you are referring to, such as the 
site neutrality and the lowering of costs of prescription 
drugs. Can you talk a little bit more about the site 
neutrality?
    Mr. Vought. Sure. Take an example of a CAT scan that you 
would get at an outpatient hospital that costs $230, versus a 
CAT scan that you would get at a physician's office, or a 
physician-owned location that would cost $118. We believe that 
that is--doesn't lead to a rational policy within Medicare, and 
actually leads to worse outcomes from beneficiaries, because 
you have providers referring to different locations, based on a 
higher reimbursement, as opposed to making sure it is the best 
from the health care decision. That is a substantial amount of 
savings that we get in that allows us to save money for the 
taxpayer, have better outcomes for seniors, and continue to 
have Medicare growing at 6 percent every year.
    Mr. Meuser. Great. Mr. Chairman, I yield back.
    Chairman Yarmuth. The gentleman yields back. The 
gentleman's time has expired. I now recognize the gentlewoman 
from California, Ms. Lee, for five minutes.
    Ms. Lee. Thank you very much.
    Thank you very much for being here. First of all, let me 
just respond to one of our colleagues who is not here now. When 
he referenced the fact that some of us over here hate the 
President--now, I am speaking personally, but I just want to 
say to you I don't hate the President, but I hate his policies. 
And when you look at how these policies and this budget--how 
they are destroying millions of people's lives, it is a very 
shameful budget, and it is something that we need to hate.
    Let me give you a couple of examples. You slash more than 
$1 trillion in Medicaid and Medicare. You cut $182 billion in 
SNAP. You cut $20 billion from TANF. You dismantle and 
completely eliminate the Social Services Block Grant, the Home 
Investment Partnership, and the Community Development Block 
Grant, all programs that meet families' basic needs.
    It is hard to imagine how anyone could be proud of this 
budget, Mr. Director.
    Someone mentioned the values. Well, yes, this does 
demonstrate what the values of this Administration are, and 
that is putting the tax cuts for the wealthy billionaires, 
millionaires, and corporations, paying for them through these 
cuts that you have put forth. Those are the values.
    Now, let me talk about waste, fraud, and abuse for a 
minute. You look at the Pentagon's budget. DoD has been on an 
unprecedented spending since 2001. This budget looks more like 
a wish list for defense contractors and a war-hungry 
administration than something based in reality.
    The Pentagon has increased their budget by $115 billion 
over the last three years. The Pentagon cannot even undergo a 
financial audit, which means we don't fully understand where 
the Pentagon spends its money. There continue to be revelations 
of massive waste, fraud, and abuse at the Pentagon. Let me list 
a couple for you, which reflects, again, the values of this 
Administration.
    The Pentagon awarded a $7 million cloud computing contract 
to a one-person company. One person. The Defense Logistics 
Agency lost track--lost track--of $800 million in construction 
projects.
    Now, national defense spending currently makes up 50 
percent of discretionary spending. Is that correct? At least 50 
percent.
    Mr. Vought. Roughly.
    Ms. Lee. Yes, and the Defense Department is the only agency 
that is not able to pass an audit, or hasn't been able to pass 
an audit. Is that correct?
    Mr. Vought. I think it is a much more complicated story, 
Congresswoman. This is the first time in history that the 
Pentagon has undergone and completed an audit, and we have now 
gone through the second year of a completed audit, and we have 
reduced the number of issues that were identified by 25 percent 
in the first year.
    Ms. Lee. But we don't know what is being spent at the 
Pentagon. We don't know what constitutes--at least you don't--
waste, fraud, and abuse. I mean we don't know if the right 
prices for contracts are being paid for. We don't know whether 
the goals that we set out in these contracts with the funding 
that we provide, where----
    Mr. Vought. We made consistent progress every single year, 
25 percent reduction in the items that were identified in the 
previous audit.
    But I want to give you an example of the progress being 
made: $6 billion in savings in Fiscal Year 2019; $8 billion in 
savings in Fiscal Year 2020; $9 billion in Fiscal Year 2021 
projected savings that--DoD is doing the hard work to identify 
waste and redirect it to other programs within DoD.
    Ms. Lee. But you are telling me, then, that you are not 
identifying any abuse or real contract fraud in your audit?
    Mr. Vought. I have not. I am sure that, if you go look at 
some inspector general reports, there might be some items 
there. But to my knowledge, there is nothing that is in my 
mind.
    Ms. Lee. OK. A couple years ago there was a report issued 
by the Pentagon that indicated there was about $150 billion 
that could be looked at, in terms of waste, fraud, and abuse. 
And I don't see $150 billion in savings in any of your budget 
so far.
    Let me ask you about the cuts in development and diplomacy. 
Following up from Congressman Moulton's question, in terms of 
the cuts by 22 percent--and I heard what you said in terms of 
there being a difference between diplomacy and foreign aid. But 
again, given the President's reference to countries in Africa 
and in South and Central America--as he called them, s-hole 
countries--many of these cuts reflect that value when it comes 
to development.
    We know that foreign aid is really a national security 
strategy to prevent terrorism, to prevent countries from 
engaging in warfare. We know that it really is a strategy for 
global peace and security. And yet your development is being 
cut by 22 percent, your development assistance. And yes, China 
is very active on the continent of Africa and many of the s-
hole countries the President has identified.
    And so, once again, here we go. Your values are definitely 
reflected in this budget. And it is really a shame and a 
disgrace that we are sending this message to countries in 
Africa and in Central and South America who really do recognize 
the importance of foreign aid from the United States as being 
our strongest national security effort.
    Chairman Yarmuth. The gentlelady's time has expired. I now 
recognize the gentleman from Tennessee, Mr. Burchett, for five 
minutes.
    Mr. Burchett. Thank you, Mr. Chairman, Ranking Member. 
Thank you, Mr. Vought, for being here.
    I sit here and listen to the talk on both sides, and I--
honestly, I just think about my sweet wife and my pretty little 
girl back home, and I kind of drift off into that. So I thank 
you for being here. And I will try not to become that crusty 
old white dude from either side of the aisle that just sits 
here and grumbles. And I am just going to ask you a couple of 
questions, all right, if that is OK with you, brother.
    Mr. Vought. It is.
    Mr. Burchett. Notice I said both sides of the aisle, so I 
am not going after anybody. I do appreciate all of my members 
waiting to hear my comments, as well, so thank you all.
    How does your budget plan to reduce and hopefully eliminate 
the waste of taxpayer dollars?
    Mr. Vought. Well, we shine a light on it in a way that we 
believe is historic. For the first time we have a whole chapter 
on waste, fraud, and abuse in this budget. It continues to be 
something that we work to root out within the top lines that 
are proposed here.
    We also want to make sure that we are dealing with 
inefficiencies and things that just don't make sense. When you 
own 25 percent of the federal--of the land in this country, why 
do you keep spending on land acquisition? That is an example 
where we just feel that, from a common-sense perspective, we 
can find savings in addition to waste, fraud, and abuse, and be 
able to get at some of the inefficiencies in government.
    Mr. Burchett. Because when you buy it, of course, it takes 
it off the tax rolls. We did that in Knox County. We got out of 
property we didn't need, and put it back on the tax rolls, and 
it just made the economy move that much better. I appreciate 
that.
    And on a separate note, I appreciate the efforts this 
budget does for our veterans, and what they do, and I 
appreciate our Ranking Member serving his country. What level 
of spending does the budget provide for veterans programs in 
Fiscal Year 2021, and how does that spending level compare to 
last year's funding level?
    Mr. Vought. Sure, we had a 13 percent increase for VA that 
is at $105 billion that fully funds the level that is required 
for the Mission Act. It is a very robust budget. This is a 
major investment in our nation's veterans to make sure that 
important law keeps getting fully funded. Last year's level was 
$93 billion, so that gives you a sense of the increase that we 
are talking about here.
    Mr. Burchett. And I think the Ranking Member or somebody 
said something earlier about the Bob Dylan artwork, and I 
actually had this legislation that referenced that earlier on, 
and understand that that was consumed into a larger bill, so I 
was glad to see that.
    I am not against artwork. Actually, I have a degree in 
education, and one of the areas I was certified in is art 
education, oddly enough. And I like art, and I like for my 
family to see it, I like for my little girl to see it. But this 
stuff at these embassies was in back rooms for the embassy 
bigwigs to enjoy and, you know, it is supposed to be 
representative of America. Well, it was back behind a locked-in 
area, and to me that money could have been spent a lot better 
elsewhere.
    And I realize $70,000 or $80,000 for a piece of artwork 
doesn't seem a lot to a Washington bureaucrat, but, dadgummit, 
the people back in east Tennessee, that is a whole heck of a 
lot of money. And so I----
    Mr. Vought. It is.
    Mr. Burchett. I appreciate your efforts, brother. And I 
will relinquish the rest of my time so we can get back to some 
more rhetoric. Thank you, sir.
    Chairman Yarmuth. The gentleman from Tennessee is always 
generous with his time, and it helps us move it ahead. Thank 
you, his time has expired.
    I now recognize the gentleman from New Jersey, Mr. Sires, 
for five minutes.
    Mr. Sires. Well, Mr. Vought, thank you very much for being 
here. I just want to tell my colleague that I am not a crusty 
old guy.
    [Laughter.]
    Mr. Sires. But, you know, as I sit here, I have to say you 
have all the lingo. You know, I wrote down some of these 
expressions that--you know, to defend some of the issues: ``We 
are on track,'' ``commitment to seniors,'' ``fully continue,'' 
``saving into the programs.'' Pretty good. Did the--and then I 
get attacked, saying that we never do a budget in your memory.
    Did the Republicans ever not do a budget in the last 14 
years that I have been here?
    Mr. Vought. Did they ever not do a budget?
    Mr. Sires. No, no, not do it, but introduce a budget and 
pass a resolution for a budget.
    Mr. Vought. They certainly did. When I was here we were 
doing budgets every year. It was--in fact, it was one of the 
major must-pass----
    Mr. Sires. Under Bush?
    Mr. Vought. Many, many years under Bush we were doing 
budgets. It was one of the major must-pass pieces of 
legislation every year.
    Mr. Sires. Was the war funded outside the budget?
    Mr. Vought. Was the what?
    Mr. Sires. The war in Iraq funded outside the budget.
    Mr. Vought. I believe we were funding the war as--that 
version of the OCO account.
    Mr. Sires. So it was outside the budget, basically.
    Mr. Vought. It was funded--substantial portions were funded 
within--it was a budget resolution----
    Mr. Sires. Right.
    Mr. Vought [continuing]. that accounted for spending that 
was that version of the OCO designation. It is not like it just 
gets ignored.
    Mr. Sires. Yes, but it was outside the budget resolution.
    Mr. Vought. No, it is not, actually. It is within the 
deficit totals that have to be added up over a course of five 
or 10 years, whatever your window is.
    Mr. Sires. You know, one of the programs that I favor 
always is the CDBG programs. And I think it is one of the ways 
where communities can really help their community save money. 
Because any time you use money for the CDBG, you are not 
passing it on basically to the local community tax.
    I just don't know if sometimes people here realize how many 
places you use the CDBG money for to help seniors, to help 
centers, to help job growth, to help, you know, fix the 
streets. And yet, every year, we have to fight because you just 
want to cut it. I mean this is one of the few programs that 
helps local communities, and, you know, at a time where money 
is short in these communities. So I never understand that.
    Mr. Vought. Well, Congressman, it is a program that is--we 
have spent about $150 billion on it, we still think that there 
is too much flexibility within the program. Let me give you an 
example of some of the----
    Mr. Sires. That is the beauty of the program, where you 
give----
    Mr. Vought. Nearly $1 million to spend on giving the 
Greenwich Historical Society upgrades. Greenwich, Connecticut. 
I live 30 minutes away from Greenwich, Connecticut. They have 
more than enough resources, as a rich community, to pay for all 
of the historical upgrades that they need.
    Mr. Sires. Well, there is also a community using it for 
Meals on Wheels, and hiring people to take the meals to seniors 
that can't move.
    Mr. Vought. No, Meals on Wheels is funded out of the ACL.
    Mr. Sires. We used it, CDBG money, it was used for that.
    Mr. Vought. Minuscule.
    Mr. Sires. Well, but communities do use it.
    Mr. Vought. They--Meals on Wheels is funded fully under the 
ACL agency under the Department of Health and Human Service 
under this budget.
    Mr. Sires. Well, all I could tell you is that we use CDBG 
money to do that, OK?
    Now, the other issue, I was here when Obama took over. How 
was the economy then?
    Mr. Vought. We were in the midst of a significant 
recession.
    Mr. Sires. I remember I was in Financial Services, and 
Paulson coming in and telling me that the world was coming to 
an end, financial houses are going under, all the lenders are 
going under.
    You know, in eight years, did the Obama Administration 
create jobs?
    Mr. Vought. My recollection of the Obama Administration is 
that, like, we lost 200,000 manufacturing jobs, that we lost--
--
    Mr. Sires. Did we lose----
    Mr. Vought. Millions of unemployment under the Obama 
Administration, that this----
    Mr. Sires. I am not talking about manufacturing jobs. Were 
there jobs created during the Obama Administration, by the end 
of his term?
    Mr. Vought. I can't tell you based on where it started 
versus where it ended, but we lost manufacturing jobs in----
    Mr. Sires. That is a selective memory that you have. All I 
can tell you is, you know, this President, in three years, you 
would think that he has done this wonderful thing that was 
never done before. Jobs were created, growth was there by the 
end of the Obama Administration. And I got to put up with this 
nonsense that we somehow didn't do anything to save this 
country.
    We saved the auto industry, we saved AIG, we saved all 
these--some of these banks. And yet he thinks he did it all by 
himself.
    Like I say, you are good, you got all the right lingo. 
Thank you very much.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Oklahoma, Mr. Hern, for five 
minutes.
    Mr. Hern. Thank you, Mr. Chairman, Ranking Member Womack. I 
appreciate the opportunity today.
    Mr. Vought, thank you for being here. You know, what I will 
tell you is--and this is just the facts--we ought to thank the 
President for keeping his promise to produce a budget. My 
friends on the other side of the aisle, you know, they love to 
tear things down, sometimes like to tear things up, the 
President's work. But it seems like the only thing we are 
getting done here is arguing about something that we all need 
to work on.
    In fact, you know, I would be one to propose that we never 
have another hearing with anybody until we get our work done, 
either side. I don't care who is in charge. Our job, the first 
requirement we have in the Constitution--much has been made 
about what the President has done with the Constitution. I 
would tell you the first constitutional responsibility that we 
have, as a Congress, is the power of the purse, to produce a 
budget, regardless of who is in charge.
    So my colleague from New Jersey is right, we have a real 
opportunity. But we shouldn't be here, you know, beating on the 
President about his budget, because he has actually done his 
work in putting something out there. You know, I give this same 
advice to my employees and managers for the years: Don't offer 
criticism without offering a solution.
    As I said, the Constitution affords us the ability to 
create a budget, and we shouldn't be taking that lightly. You 
know, passing a budget resolution, and subsequently passing the 
appropriation bill in regular order helps us reign in spending 
and control our debt. When you have revenues growing at 5 
percent a year, expenses growing at 8 percent a year, there is 
not a person in here--I don't care what the initial is at the 
end of your name--who thinks that is a rational way to run a 
program, run a business, to run your personal life. We have to 
get that in order.
    You know, if you look at it, the sad fact is that we have 
done such a poor job of this that, by 2021, the United States 
will be spending more money on paying down our debt than for 
our budges of the Departments of Veterans Affairs, Justice, 
Homeland Security, and NASA combined. That is pretty scary.
    Because we have done a poor job of controlling our debt, we 
must borrow, only indebting our children and grandchildren. As 
my colleague from South Carolina said earlier, we are not 
throwing Grandma off the cliff, we are throwing our kids and 
our grandkids, and the future generations off the cliff.
    Just as CBO Director Swagel said, confirming--in our last 
meeting, ``Our national debt will become a national security 
threat if we don't get our fiscal house in order.'' For the 
record, Director Vought, do you agree with that statement?
    Mr. Vought. I do believe we will face a national security 
disaster if we don't get our fiscal house in order. We need to 
be able to continue to increase defense spending. But we have 
to get to the point of being able to deal with our debt and 
deficits.
    And former national security leaders like Admiral Mullen 
have said this on the record, as well.
    Mr. Hern. And General Mattis said this in a Senate hearing.
    Just to get some things on the record here, much has been 
said about the President, or the Republicans in general, about 
preexisting conditions. Is that--the President is for fixing 
preexisting conditions, is he not?
    Mr. Vought. He is. He is for completely protecting 
individuals with preexisting conditions. It is something that 
he has never wavered at any point, both on the campaign trail 
and in his presidency, to protect.
    Mr. Hern. In fact, he reiterated that to tens of millions--
hundreds of millions of people at the state of the Union, 
just----
    Mr. Vought. He did.
    Mr. Hern [continuing]. 10 days ago or so.
    They claim that, under Trump, the average American is 
struggling. How do we know this is false?
    Can you--you know, there was a poll last week that is--not 
very favorable, Gallup--came out and said that six out of 10 
Americans are better off financially today than a year ago, 75 
percent say the economy is in good shape, a 20-year high. In 
fact, it was 90 percent of the people said they were satisfied 
with their personal life. From Gallup, somebody who has never 
been favorable to this President.
    Is there anything you want to add to that? Is there any--
you going to--I mean those comments justify that the economy is 
moving in the right direction, wouldn't you say?
    Mr. Vought. I would. I would say those comments do, as well 
as the facts on the ground, and what we are seeing, in terms of 
10 million people getting off of welfare, seeing people with 
thousands of dollars of new disposable income to be able to 
invest in their families and their communities and their 
charities, all of these things are a sign of success. Record 
low unemployment, lowest unemployment in, basically, 50 years. 
This is the sign of an economy that is booming, of people that 
are benefiting from it.
    You want to say, look, how is the bottom half doing? They 
have had their income increase 47 percent, and that is three 
times faster than the top 1 percent. So this--we talk about it 
as a blue-collar boom, because we see it at every step of the--
--
    Mr. Hern. I just--I got--I have 30 seconds left, but, you 
know, just as a reminder to everybody that is here today, the 
ones that will see this video, 1974 Budget Control Act required 
that we, as Congress, start producing budgets, working together 
with the President, to fulfill that and reconcile it.
    We have passed that budget four times in regular order, got 
our appropriations done so that we didn't have continuing 
resolutions. The last time we did that was 1996. 
Coincidentally, that was the last time we had budget surpluses 
in America, in 1997, 1998, and 1999, and 2000.
    I would say that we should start looking at that again, 
instead of being critical and political toward the President's 
budget.
    Mr. Chairman, I yield back.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from California, Mr. Peters, for five 
minutes.
    Mr. Peters. Thank you, Mr. Chairman. I have been around for 
four terms now. This is my fourth term. And in the last term my 
colleague wasn't here, but the President led an effort to 
repeal the Affordable Care Act, which is where the protections 
for preexisting condition coverage came from.
    Today that was not successful by the one vote of Senator 
McCain. Today his lawyers in the Justice Department are 
agreeing with states who are trying to overturn the Affordable 
Care Act. And I would just point out I have never seen a 
proposal from the President to actually take care of this idea. 
So if there is a health care plan from President Trump, I am 
looking forward to seeing it.
    But saying that it is true----
    Mr. Vought. Can I----
    Mr. Peters [continuing]. doesn't make it true.
    Mr. Vought. Can I address that?
    Mr. Peters. I am not asking a question, I am just 
responding, because--I want to ask you about the budget, 
though.
    What does a budget assume for real GOP (sic) growth as the 
average over the next 10 years?
    Mr. Vought. About 3 percent, that we would go to 3.1, then 
be at 3 percent, then head down to 2.8 percent in the last few 
years of the window.
    Mr. Peters. And what is the CBO estimating that the economy 
is going to grow at the same time period?
    Mr. Vought. Roughly about 2 percent.
    Mr. Peters. And how about the Federal Reserve? What is 
their projection?
    Mr. Vought. I don't have the Federal Reserve with me.
    Mr. Peters. My understanding, it is 1.9 percent. So I have 
the independent--the CBO, non-partisan CBO, the independent 
Federal Reserve projecting about 2 percent, but the 
Administration projecting about 3 percent. What is the basis 
for that?
    Mr. Vought. Sure. It is a post-policy budget. And it is 
post-policy economic assumptions.
    Forecasters take the world as it exists, without changes in 
law. Our budget is a fiscal plan for the next 10 to 15 years, 
when we reach balance in 15 years. It assumes things that will 
occur in our budget, such as extending the tax cuts. It assumes 
things like ongoing deregulatory initiatives. It assumes an 
infrastructure bill.
    Mr. Peters. Right.
    Mr. Vought. It assumes better trade deals, so when we get 
something done--for instance, with Canada and Mexico--it 
doesn't sit in Congress for a year, waiting to be passed. These 
are all things that lead us to be able to both aspire and 
believe that we can get to 3 percent growth.
    Mr. Peters. OK. Well, last year you projected the economy 
would grow at 3.2 percent. Instead we got 2.3 percent, which is 
a--quite a bit of fall-off. I don't think the tax--the 
testimony we have had from other people is that the tax bill 
did not bring nearly the growth that the Administration 
suggested it was going to bring.
    What would happen if the--what would the deficit impact--if 
the economy grew by 2 percent, as most of the forecasters 
believe?
    Mr. Vought. We would have a hard time right now being able 
to meet our target of balance, because it is an important part 
of our budget assumption.
    But I just would point you to the last four years of the 
Obama Administration, where the Obama Administration increased 
taxes by $653 billion----
    Mr. Peters. No, I don't want to--I didn't ask you about 
that.
    Mr. Vought [continuing]. $3 trillion in revenue lost that 
CBO never predicted----
    Mr. Peters. Well, OK.
    Mr. Vought [continuing]. and they just called them 
technical changes.
    Mr. Peters. Well, we could have a lot of discussion about 
the revenue lost from the tax cuts of 2017, but I am just 
suggesting that the forecasts you have made in the past have 
been rosy. They look rosy, compared to the independent 
estimators that we have out there----
    Mr. Vought. We have done better than the independent 
forecasters two out of the last three years.
    Mr. Peters. You got off by, it looks like, 50 percent.
    Mr. Vought. So we----
    Mr. Peters. Let me ask this about foreign aid.
    Mr. Vought. In 2017----
    Mr. Peters. Let me ask you about foreign aid in my 
remaining time. Former Defense Secretary Mattis once said that, 
``If you don't fund the state department fully, then I need to 
buy more ammunition, ultimately.''
    I represent a military area, I have never voted against the 
military budget. But I am concerned that, by cutting the state 
department 20 percent, the lack of investment in diplomacy 
makes war more likely. And I think that is of great concern, 
too, to people that I represent.
    Can you explain if any analysis was done of the risks taken 
with respect to cutting the state department by 20 percent?
    Mr. Vought. Yes, you are referring to the state and foreign 
aid account that goes down by 21 percent. I will continue to 
maintain that we fund adequately diplomacy, because we believe 
that is an important aspect of international relations.
    But we are taking a different view----
    Mr. Peters. Just on that----
    Mr. Vought [continuing]. with regard to foreign aid----
    Mr. Peters. The Department itself has been cut by $11.7 
billion, from 55 to 44. So I--if I over-stated for--it is still 
a lot of money, right?
    Mr. Vought. It is a significant amount of money. But we 
believe that diplomacy, understood, is fully funded, as was 
required.
    Now, we will also say that, within public diplomacy 
accounts, there is waste, fraud, and abuse that we attempt to 
reduce, because we are trying to weed it out.
    Mr. Peters. Can you give me an example of waste, fraud, and 
abuse that you are trying to cut out?
    Mr. Vought. Yes, I will give you three examples: the Bob 
Dylan statue in Mozambique that was at an embassy----
    Mr. Peters. How much is that?
    Mr. Vought. That is about--it is about $1 million.
    Mr. Peters. OK, only $11 billion to go of waste, fraud, and 
abuse.
    Mr. Vought. Little by little.
    Mr. Peters. Little by little? I think that is the problem, 
is----
    Mr. Vought. How about the $7,500 for the Muppet 
Retrospectacle in New Zealand? How about $850,000 for the 
professional cricket league in Afghanistan?
    Mr. Peters. Wow.
    Mr. Vought. What about $4,800 for sending American artists 
to a poetry festival in Finland?
    Mr. Peters. My time has expired, but you--it would take you 
a lot of $1,000 increments to explain this massive cut in 
diplomacy on behalf of the leader of the free world. My time 
has expired.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Texas, Mr. Crenshaw, for five 
minutes.
    Mr. Crenshaw. Thank you, Director, for being here. You have 
received a lot of criticism over the President's budget. I am 
just curious how it compares to Speaker Pelosi's budget.
    Mr. Vought. There doesn't----
    Mr. Crenshaw. Proposed.
    Mr. Vought. Speaker Pelosi does not have a budget.
    Mr. Crenshaw. Are you sure?
    Mr. Vought. I am sure.
    Mr. Crenshaw. What about this Committee? How does it 
compare to this Committee's budget from the majority, that they 
have proposed?
    Mr. Vought. To my knowledge, this Committee is not working 
on a budget, nor has it produced one.
    Mr. Crenshaw. That seems strange to me, doesn't it? The 
Constitution says that the budget is supposed to originate in 
the House and then go to the Senate and then be signed by the 
President. You are saying there is--you haven't seen a budget 
that you can compare to the President's budget?
    Mr. Vought. I have not seen one.
    Mr. Crenshaw. So interesting. Lots of stones being cast, 
but no actual values being proposed. And I use that word very 
carefully, because Nancy Pelosi likes to say, ``Show me your 
budget, show me your values.'' So the implication is that there 
is no values if you don't have a budget.
    But you say that, and yet the stones are cast in a way that 
would imply that the President's budget is without values, is 
without any moral character, because that really is the 
implication being thrown around. You don't spend enough money 
on this, you don't spend enough money on that. How dare you? 
Have you no heart? That is always the shame used, the moral 
grand-standing used to make the points.
    Why is it we have an unending debt, unending growth in 
debt? Why is that? Because this body engages in nothing but 
moral shaming. You don't have a heart if you are not willing to 
spend double or triple the money that we are, never mind that 
there is no thought put into the second and third-order 
consequences, no thought put into whether or not that money is 
being well spent. Just moral shaming. Why? Well, because, as 
Alexis de Tocqueville said, the end of a republic is when 
politicians figure out that they can bribe the people with 
their own money. And they do so by morally shaming their 
political opponents. If you want to understand why we are at 
where we are at, that is exactly why.
    This Committee is supposed to set--act like adults and set 
some kind of top-line budget, and make the appropriators work 
within that budget. But you are telling me there is no budget 
coming out of this Committee. That is a shame. That is what I 
thought I came on this Committee to do, was to have those adult 
conversations, and then force actual choices.
    If you actually force choices, well, then maybe we can come 
to some agreement on what might need to be done, where money is 
being wasted, where it is not being wasted, where we need to 
invest. But those conversations never happen, and negotiations 
end up just increasing on all fronts. That is not sustainable. 
This budget--or this Committee has to be the adult in the 
Congress that says, ``We can't spend that much more money. It 
is not sustainable for our next generation.'' Make the 
appropriators decide what to do with the money we give them.
    But we are not doing that. Instead, we are taking really 
easy but disingenuous political shots at the President's 
budget.
    Why don't we actually debate, within an adult-like top line 
of a budget, what should be in the budget? No, but you can't do 
that, because then you would have to show your values. Then you 
would actually have to have an adult conversation. God forbid.
    Director, would you like to clarify anything that you 
didn't get to clarify before--it seemed like you wanted to talk 
about preexisting conditions.
    Mr. Vought. I would love to. This President has fully 
committed to protecting individuals with preexisting 
conditions. He has proposed specific policies in the past, 
including last year's budget, where we actually had an actual 
plan that was proposed in the budget that would have done so.
    This budget has a health care reform allowance that 
continues to maintain those protections for individuals with 
preexisting conditions. The--we don't have a specific proposal 
this year, because we continue to work on it at--within the 
Administration. But when we provide a specific plan, just like 
the previous plans, it will have an ironclad commitment for 
individuals with preexisting conditions.
    Mr. Crenshaw. Which, I would agree, we need. And it turns 
out, if you are willing to engage in some kind of thinking that 
is other than totally simplistic, you can get rid of Obamacare 
and still protect people's preexisting conditions. Imagine 
that. Imagine that. You can do it.
    So I am glad to hear that the President does have a plan to 
do exactly that. Thank you.
    Chairman Yarmuth. The gentleman's time has expired. I will 
remind the gentleman that roughly six, eight months ago we in 
this Committee passed a piece of legislation that established 
top-line spending numbers for discretionary spending. And it 
passed on a bipartisan basis for 2020 and 2021.
    The gentleman from Virginia, Mr. Scott, is recognized for 
five minutes.
    Mr. Scott. Thank you very much. Could we get the chart up 
while I point out?
    [Chart.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Scott. We have heard that it is not a spending 
problem--it is not a revenue problem, it is a spending problem. 
The fact is it is arithmetic: whatever you spend you have to 
pay for. And if one goes up--and that is the problem with not 
paying for a tax cut.
    And I remind people that, since Nixon and Ford, every 
Republican President has ended up with a worse deficit 
situation than they started with. And every Democrat has ended 
up with a better deficit situation than they started with, 
without exception. And this President seems well on track to 
keeping that trend going.
    We have--the budget projections assume a 3 percent growth. 
Everybody else in the world is suggesting a 2 percent or less 
growth. And so the numbers will, obviously, be reflective of 
that.
    As the gentleman from Pennsylvania noted, we have a one, 
two, three plan going.
    If somebody had suggested you are going to have a $1.5 
trillion tax cut and pay for it with cuts in Social Security, 
Medicare, and Medicaid, you would have said that is ridiculous, 
not going to do it. But if you do it one, two, three--one, cut 
the taxes; two, whoops, we have got a big deficit; three, now 
you expect us to cut Social Security, Medicare, and Social 
Security.
    Now, Mr. Director, you acknowledge that this Administration 
supports litigation that will end the Affordable Care Act, and 
you promised a replacement. Are you aware in the last Congress 
that the Republican-controlled House and Senate and that--the 
House passed a repeal-and-replace with the President's support?
    The CBO scored, showing 20-some-million fewer people would 
be insured, the cost will go up 20 percent, and significant 
erosion of protections for those with preexisting conditions. 
Are you aware of the CBO score?
    Mr. Vought. I am aware that CBO had similar estimates that 
we rejected at the time.
    Mr. Scott. OK. You also recognized that the junk plans that 
the President supports will allow people, healthy people, to 
get into junk plans, making everybody else in a sicker pool. So 
if you got a preexisting condition, you are stuck over there, 
and it will be increased pressure on those with preexisting 
conditions.
    Now, you said that the Medicare is not being cut. Is that 
what I----
    Mr. Vought. That is correct. Medicare will grow 6 percent 
over this budget.
    Mr. Scott. OK. How much does the elderly population 
increase over that time?
    And can you tell us what the per capita spending for 
Medicaid--for Medicare would be over that period of time?
    Mr. Vought. I don't have it handy, but I am sure you have 
it.
    Mr. Scott. I don't have it, that is why I asked.
    Well, just as expenses go up, you--of course, the expenses 
go up. Inflation has gone up, so you have to keep up with 
inflation. The population is going up, so you got to pay more 
because there are more people. Is that right?
    Mr. Vought. It is correct, and we are way above that.
    Mr. Scott. And the----
    Mr. Vought. Medical inflation is----
    Mr. Scott. Well, the CBO----
    Mr. Vought [continuing]. three-and-a-half percent.
    Mr. Scott. CBO has a baseline to keep up with everything. 
And----
    Mr. Vought. CBO has a baseline that includes paying more 
than we would like to in prescription drug costs.
    Mr. Scott. OK.
    Mr. Vought. CBO has a baseline that assumes that we pay 
more than we would like to for things like CAT scans.
    Mr. Scott. OK, that is right. And you come up about half-a-
trillion dollars short of the baseline.
    Mr. Vought. We have savings, and $135 billion for drug 
pricing----
    Mr. Scott. Savings?
    Mr. Vought. We have savings for----
    Mr. Scott. You don't have----
    Mr. Vought [continuing]. payment site neutrality. We have 
savings where we take things out of the Medicare Trust Fund and 
still fund them outside of Medicare at a slower growth rate.
    Mr. Scott. You come in about a half-trillion under the 
proposed baseline.
    Is it true the Department of Education cuts are 8 percent?
    Mr. Vought. It is true that we have a consolidated block 
grant of $20 billion for education spending that takes 30 
programs and consolidates and then block grants them to the 
state. It is true that we have basically flat-level funding 
from the year before. Once you control for the fact that we are 
eliminating programs that don't work----
    Mr. Scott. Let me ask the question again. Is it true the 
Department of Education is cut 8 percent?
    Mr. Vought. There is a percent reduction for the Department 
of Education.
    Mr. Scott. Is it----
    Mr. Vought. It is based on eliminating programs that don't 
work, that don't lead to better math and reading scores.
    Mr. Scott. Which is important because the Department of 
Education recent report shows that reading proficiency was 
lower in 2019 and 2017.
    You cut $5 billion from elementary and secondary education.
    Mr. Vought. And when programs that don't lead to more 
proficiency in reading and math--and they proved that in 
studies, and that is a program like the 21st Century Learning 
program--we eliminate that program, yes.
    Mr. Scott. I take that as a yes, you cut $5 billion out of 
elementary and secondary education.
    And your student loan plan, under present law, when you 
have paid on an income-based payment, after 15 years the rest 
of the loan is discharged. What happens after 15 years with 
payments under your plan?
    Mr. Vought. It is discharged.
    Mr. Scott. It is totally discharged?
    Mr. Vought. You have debt relief after 15 years.
    Mr. Scott. And the Public Service Loan Forgiveness?
    Mr. Vought. Under--people benefiting from that program 
would be benefiting from the new program after 15 years of the 
income-driven repayment plan, in the same way as the graduate 
students would have the benefit after 30 years.
    Mr. Scott. Instead of 10 years under the present plan?
    Mr. Vought. Fifteen year under the President's plan, 30 
years for graduate----
    Mr. Scott. Under the President's plan--under present law, 
the student--Public Service Loan Forgiveness, you are 
discharged after 10.
    Mr. Vought. That may be correct.
    Mr. Scott. Thank you, Mr. Chairman.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentlewoman from Connecticut, Ms. DeLauro, for 
five minutes.
    Ms. DeLauro. Thank you very much, Mr. Chairman. I think it 
has been stunning this morning. And what we have been subjected 
to this morning is an Orwellian presentation that showcases 
doublespeak.
    What is doublespeak, and what is its purpose? Its purpose 
is to distort reality. So let's talk a little bit about 
reality.
    And Mr. Chairman, you pointed out that top lines were sent 
over in July, part of the bipartisan budget agreement. The 
President signed it. And what we find in this new budget is 
that he has walked away from that budget agreement. Bipartisan. 
Let's talk about that.
    OK. Now, the other thing is let me just mention the 
conversation around budget cuts. Determining whether a federal 
budget proposal counts as a budget cut is simple. If the 
proposal would reduce funding for a program's benefit, or 
services, or reduce the number of people who qualify for 
benefits relative to levels that would occur under current law, 
it is a cut. Again, reality.
    Let me clarify some of the distortions of reality about 
this budget.
    The reality about job growth. It has been lagging in key 
states. Don't take my word for it; let's go to the Bureau of 
Labor Statistics. Pennsylvania, Michigan, Wisconsin, Ohio, 
Minnesota, job growth is lagging. That is what the Bureau says. 
Reality.
    Real wages are barely increasing. I did not make up this 
number, Mr. Chairman, it is the Bureau of Labor Statistics.
    Further reality, growth has been, essentially, the same as 
under Obama. That comes from the Bureau of Economic Analysis.
    The growth rate, in reality, is well below past levels. 
That comes from the Bureau of Economic Analysis. The historical 
average is 3 percent. The Trump Administration is 2.5 percent. 
The Bureau of Economic Analysis.
    Manufacturing? Manufacturing's share continues to decline 
to new, all-time lows. There is no blue collar boom. That is 
doublespeak. And that information comes from the Bureau of 
Economic Analysis. Because key states lost manufacturing jobs 
last year--Minnesota, Pennsylvania, Wisconsin, Michigan, Ohio--
the data, again, comes from the Bureau of Labor Statistics.
    From the Federal Reserve and from the Census Bureau, that 
the President's policies have only made wealth and income 
inequality worse, those are the facts.
    You can say what you like, you can distort the truth any 
day of the week. You can continue to talk about cuts in a 
Orwellian fashion. But they are cuts.
    I am just going to give you one last fact. I did a hearing 
this morning with regard to the coronavirus. We looked at FEMA 
and the CDC being the--two of the pillars that are going to 
help us in this effort. What are we watching? We are watching 
the FEMA budget being cut, both individual assistance, both the 
federal assistance, the disaster relief funds. We are watching 
the CDC budget being cut, and the money that they need to deal 
with this virus. And we are watching what they are doing to 
helping states and localities.
    I rest my case, Mr. Chairman. This is nothing but an 
Orwellian distortion of what the reality is. Thank you, I yield 
back.
    Chairman Yarmuth. The gentlewoman's time has expired. I now 
recognize the gentleman from Nevada, Mr. Horsford, for five 
minutes.
    Mr. Horsford. Thank you very much, Mr. Chairman. I don't 
know where to begin. I would like to start by pointing out the 
concern that I know I had, and a majority of my constituents 
back in Nevada had, that when the 2017 Congress, along with the 
President, passed the historic Jobs and Tax Cut Act (sic), that 
we were worried that this day would come, where the proposal 
would be made to balance those tax cuts on the backs of the 
working people of this country.
    We now know that that tax cut has added $1.9 trillion to 
the deficit, and you are here today to defend a budget that 
seeks to balance our budget on the backs of working Americans.
    One of the safety net programs that is most at risk of harm 
is the Supplemental Nutrition Assistance Program, also known as 
SNAP. The President cuts $182 billion over 10 years from SNAP 
by imposing stricter work requirements that have already been 
rejected by Democrats and Republicans. A 130,000 Nevada 
families rely on SNAP benefits to put food on their table, and 
we know that SNAP has a tremendous multiplier effect in our 
economy, both in our rural and urban areas. Yet President Trump 
keeps trying to take food out of the mouths of children and 
needy families to do what? To give tax breaks to big 
corporations and the very wealthy.
    Dr.--Director Vought, how many individuals will lose SNAP 
benefits as a result of this work requirement proposal?
    Mr. Vought. The way you are describing our proposal is not 
true, Congressman----
    Mr. Horsford. How many individuals will lose----
    Mr. Vought. This budget would merely provide savings and 
reforms in the food stamp area in two primary ways.
    Mr. Horsford. My question is----
    Mr. Vought. No. 1, the Harvest Box----
    Mr. Horsford. How many----
    Mr. Vought. Let me give you an example.
    Mr. Horsford. No, no, no. I am asking you a question. The 
question is how many individuals----
    Mr. Vought. We don't think people are going to lose 
coverage because of these proposals. We believe that people 
will get off of food stamps and go into--get off of the cycle 
of dependency and onto the ladder of economic opportunity with 
jobs that don't require them to be on the social safety net 
program.
    Mr. Horsford. So you----
    Mr. Vought. For instance, we have a----
    Mr. Horsford. Do you--Director, I am reclaiming my time.
    Mr. Vought. OK.
    Mr. Horsford. Fifty-three million Americans, 44 percent of 
the work force today, earns barely enough to live on, with 
making $18,000 a year. Putting people on part-time jobs that 
don't pay livable wages doesn't get them off a cycle of 
dependency.
    Mr. Vought. We believe----
    Mr. Horsford. I know. I come----
    Mr. Vought. We believe that is inaccurate. We have seen----
    Mr. Horsford. Reclaiming my time.
    Mr. Vought. OK.
    Mr. Horsford. The President also proposes to eliminate $1.7 
billion from the Corporation for Travel Promotion, also known 
as Brand USA. This is a direct attack on Nevada's tourism 
industry. In 2018 alone, Brand USA brought over 1.1 million 
international visitors to the United States, including to Las 
Vegas, creating 52,000 American jobs, and generated a total 
economic impact of $8.9 billion.
    Director, can you explain to me why this Administration 
wants to get rid of Brand USA, which has proven to be an 
economic engine for Nevada and the rest of the country?
    Mr. Vought. Congressman, we believe the true economic 
agenda is the economic policies that this President has put 
forward with regard to extending the tax cuts, which are 
working, which are----
    Mr. Horsford. My question is regarding Brand USA. Don't 
divert to some broad, general talking point. I am asking about 
this program that has a tremendous direct impact on our 
nation's tourism economy.
    Mr. Vought. And I answered the question, that our economic 
agenda is based on a strategy of wanting to get----
    Mr. Horsford. So tourism is not a part of your economic 
agenda, even though it is a key sector?
    Mr. Vought. I am not suggesting----
    Mr. Horsford. Moving on, the President directly attacks 
Nevada by completely eliminating $230 million in funding from 
the Southern Nevada Public Lands Management Act, also known as 
SNPLMA.
    Just last year, Interior Secretary Bernhardt provided over 
$100 million to support 47 public lands projects throughout 
Nevada and the California side of the Lake Tahoe Basin. These 
projects include wildlife--wildfire prevention projects, 
wildlife habitat conservation, and hazardous fuels reduction. 
Why are you and the President proposing to take away federal 
money and jobs from Nevadans by canceling SNPLMA funding?
    And let me point out that 5 percent of the revenue 
generated from SNPLMA goes to the state of Nevada general fund, 
and 10 percent goes to the Southern Nevada Water Authority.
    So this budget actually attacks the education of Nevada's 
children and our water supply. Why is the Administration doing 
that?
    Mr. Vought. We disagree with that analysis. We find that 
there is $800 million in unobligated balances in that program, 
and the types of projects that this program has funded is 
slowly, over time, drawing up--drawing down, in terms of they 
are not being able to have applications for the spending. That 
is why we have unobligated balances. And all we are saying is 
we want $200 million of that savings for deficit reduction when 
we----
    Mr. Horsford. Sweeping money from the children of Nevada to 
balance your budget on the backs of working Americans after 
giving a tax cut to the very wealthy and big corporations is 
not going to happen, not on my watch.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Georgia, Mr. Woodall, for five 
minutes.
    Mr. Woodall. Thank you, Mr. Chairman. I would like to give 
Mr. Horsford credit for not letting the President's budget 
pass, but I have been here 10 years and we haven't had any 
President's budget pass. We used to put the Obama budget on the 
floor, just to see if anybody would vote for it. And, generally 
speaking, folks wouldn't.
    So, Director, I am grateful to you for going through this 
exercise, because I find that this is the only conversation 
about priorities we end up having in a line-by-line way. You 
take a big risk when you put things down, line by line, which 
is why folks like to talk about principles, instead of 
specifics.
    And the 1974 Budget Act requires it, and the Administration 
complies with it, just as the Obama Administration did, and I 
am grateful to you for doing that.
    I wanted to--you may not have looked at the tax bill that I 
have sponsored. It is not a tax cut bill, it was a tax reform 
bill, the FairTax, and we eliminated the income tax and the 
payroll tax in favor of a national retail sales tax.
    And folks would always call and say, ``Rob, I think that is 
a great idea, but I really want to hang on to my home mortgage 
interest deduction.''
    And I would say, ``Well, we are eliminating the income tax, 
so there is nothing to deduct your home mortgage interest 
against.''
    ``Well, I know, Rob, but I really want to keep that 
deduction.''
    I think about that while you are having the conversation 
about folks losing benefits because they have succeeded into a 
place where they no longer need those benefits.
    I am all about the economic ladder. I want folks to be able 
to grab it, I want folks to be able to climb it. Some folks are 
going to come down, some folks are going to go up. It needs to 
be a dynamic place.
    As you were looking at budget priorities, could you talk a 
little bit about whether those were decisions to cut things 
that you thought were irrelevant, or whether those were 
decisions based on a larger plan, when you said we are not 
going to need these things as much because we are going to be 
succeeding in other areas?
    Mr. Vought. Yes, I think that I mentioned this in my 
opening testimony. This is not meant to be a green eyeshades 
budget. We have investments where the President believes 
investments need to occur: infrastructure, rural America, 
ongoing funding for addressing the opioid epidemic. These are--
obviously, our nation's veterans, with an increase of 13 
percent for veterans, and a 12 percent increase for NASA. So 
these are all areas where we looked at it, and we said, even 
with the top-line fiscal goals that we are trying to 
accomplish, we got to get to these levels.
    And then we look at other areas, and we try to find waste 
and inefficiencies, and we try to find waste and inefficiencies 
everywhere, to be honest with you. But we look in--to find 
where can we get rid of program duplication. Where does the 
underlying logic for a particular policy need to change?
    For instance, I mentioned land acquisition earlier. When we 
have 25 percent of the land in this country owned by the 
federal government, that is an easy place to find savings, just 
by not pursuing new, additional land.
    So when we write a budget, we try to meet fiscal goals, but 
we do it with the context of these programs, and where we need 
to find savings, and where we need to make investments.
    Mr. Woodall. I do agree with Mr. Horsford, we can't cut our 
way into prosperity. We have got to grow our way into 
prosperity.
    Candidly, I was disappointed in the last Republican 
Presidential primary. Nobody ran on balancing the budget. Folks 
ran on new promises, in many ways. Folks ran on tax cuts. 
Nobody ran on balancing the budget. And that same thing is true 
in the Democratic primary going on now. I listen to some of 
these very heartfelt conversations about real people losing 
real benefits. That is the only place this conversation lands 
if we don't get our fiscal house in order. Financial collapses 
hurt those who need government most the most.
    Can you tell me a little bit about that long-term planning? 
It is so easy to get caught up in what this budget says about 
this year. I am really more interested in how this budget is 
going to impact us 10 years from now----
    Mr. Vought. Sure.
    Mr. Woodall [continuing]. and 20 years from now.
    Mr. Vought. That is the benefit of this budget. We have put 
forward a 15-year plan to get to balance. We believe that is a 
vital fiscal goal. We have to be able to get more along the 
lines of where American families are, every month, balancing 
their books to make sure that they have enough spending 
restraint to reflect what--the money that is coming in.
    So that is going to continue to be our posture. That--this 
President is not running away from deficits and debt. He is 
tackling them. He is putting forward budgets--this is the 
fourth budget he has put forward. Congress has differing views 
with regard to whether those budgets should pass, but the 
President is coming forward into this chamber and saying, 
``This is my plan, this is my plan to get to balance, and I 
look forward to hearing from your plan.''
    Mr. Woodall. I hope that you will hear from our plan. I 
have had to write budgets on this Committee, I have had to 
write budgets for the Republican Study Committee. It turns out 
that is a really hard thing to do. There is a reason we have 
open rules on budgets. And anybody could offer their budget, 
because it turns out not many people want to offer their 
budget, because it is really hard to do. I give the Progressive 
Caucus credit for doing it, our Republican Study Committee for 
doing it. But I certainly give the Administration credit for 
doing it. Thank you for being here.
    Thank you for your indulgence, Mr. Chairman.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentlewoman from Minnesota, Ms. Omar, for five 
minutes.
    Ms. Omar. Thank you, Chairman. Thank you for the--to my 
colleague for the shout-out to the Progressive Caucus for 
putting out a budget.
    I wanted to ask how much has the national debt increased 
under Trump's tenure so far?
    Mr. Vought. Right now, debt, as a percentage of GDP, is 
roughly where it was when President Trump came into office as 
it pertains to Fiscal Year 2020----
    Ms. Omar. Could you just say how much?
    Mr. Vought [continuing]. right around 80 percent. Right 
now, the national debt is $23 trillion. It is too high. That is 
why we have a budget here to be able to tackle it by----
    Ms. Omar. OK----
    Mr. Vought [continuing]. $4.6 trillion in deficit reduction 
over 10 years.
    Ms. Omar. All right. So it has increased $3 trillion. And 
your deficit in 2020 alone will be more than 60 percent higher 
than the year Trump took office.
    Massive tax cuts for the rich, aggressive military 
spending, and excessive immigration enforcement have all 
partially contributed to these high deficits. And with revenue 
as a share of the economy at historic lows, and income 
inequality at historic highs, I fail to see how you can 
realistically balance the budget under your current policies. 
But you are still expecting that high income growth will help 
pay for these wasteful spending policies.
    Was the last time that annual--when was the last time that 
the annual GDP has hit your projected growth rate of 3 percent 
or higher per year?
    Mr. Vought. Yes. Our first year we were way over our 
economic growth number when the actuals came in at 2 percent 
and we were significantly underneath that. So we have been--out 
of the last three years, it has been closer to our mark than 
CBO's, two out of the last three years.
    But I would--just would say we are trying to actually 
reduce wasteful spending in this budget. We don't think of tax 
relief for American families as wasteful spending. We think it 
is their own hard-earned money that we are returning to them, 
so they can invest in their families, their communities, and 
the individuals in their households.
    Ms. Omar. Yes. Well, we differ on that. It was never during 
this presidency. Your growth projection is about double the CBO 
expected during that same time period.
    However, we know that this Administration is not afraid to 
cut important programs that millions of Americans rely on every 
single day to try to fix Trump's policy failures. And yet it 
was only four days ago that the President stated that he will 
not be cutting Social Security or Medicaid in the fiscal 2021 
budget. So I am glad we are now getting an opportunity to make 
sure we have this Administration on record for its false 
promises to the American people.
    My colleagues on the other side and this Administration 
will lecture us on the academic principles of fiscal 
responsibility and austerity by limiting deficit spending, 
unless it means cutting tax cuts for the rich. OMB projects 
that the federal deficit will top $1 trillion this year, and 
CBO sees $1 trillion deficit continuing every year thereafter 
under your current policies.
    Trump ran on this promise, this impossible promise, to 
eliminate all U.S. debt after eight years in office. But your 
own projections show that he will not even manage to come close 
to eliminating a budget deficit until 2035.
    Republicans will shift our focus to high deficits and 
raising national debt that they are causing, not only to then 
push for deep cuts in vital programs for millions of working 
families, but also to distract us from the even bigger number, 
$35 trillion.
    I know that you talk about tax cuts as putting money back 
into people's pockets. But I know that most Americans see how 
their neighbors and everyday citizens are struggling under 
these cruel cuts that you are making to programs that are 
desperately needed by most Americans.
    Thank you, and I yield back.
    Chairman Yarmuth. The gentlewoman's time has expired. I now 
recognize the gentleman from California, Mr. Panetta, for five 
minutes.
    Mr. Panetta. Thank you, Mr. Chairman. Thank you for holding 
this hearing, Ranking Member Womack, as well as Director 
Vought. Thank you for coming up here and attempting to defend 
this budget, which I admit I do believe is a failure to invest 
in our communities, and does lack the will to invest in our 
future.
    This budget, I believe, takes a step backward. It really 
creates greater challenges for the families that I represent 
there on the central coast of California, especially those in 
need of affordable housing, good schools, and healthy meals. It 
does fail to protect our environment or address climate change. 
It abandons public servants deserving of student loan 
forgiveness, and it does make it harder for low-income students 
to afford college. It cuts Social Security, even after the 
President promised not to do so, ignoring reforms like the 
Social Security 2100 Act, and it does sabotage our health care 
system by cutting Medicare and Medicaid.
    It does all of this, while increasing spending on political 
promises such as building the wall. The proposed budget also 
pushes a notion that cutting spending is the only way to get 
our deficits under control I believe that if we don't have the 
revenue to make the investments we need in affordable housing, 
nutrition, and education, and protecting our environment and 
fighting climate change, then we should not be continuing tax 
cuts that benefit the wealthiest and corporations.
    Fortunately, Congress, not the President, has the power of 
the purse. And going forward, just like in the past few years, 
I am confident that we will make more responsible decisions 
with taxpayer dollars than what has been proposed by this 
Administration.
    Now, the President has promised to eliminate deficits. We 
understand that promise, we have heard it. Yet, even under very 
optimistic growth predictions that are all--that are a full 
percentage point above CBO and the Federal Reserve, the budget 
would not be balanced until about 2035.
    Are there any independent or non-partisan analysts who 
share those growth predictions, Mr. Director?
    Mr. Vought. Congressman, this is a post-policy budget with 
its economic assumptions. And so the forecasters out there are 
taking the current law, as it is, and the current economic 
environment, and that is what is based on their forecasting.
    We assume the policies of this proposal are enacted, 
whether that is infrastructure, whether that is agreeing to the 
better trade deals, whether that is getting people off of 
welfare rolls. All of those things are policies that are 
assumed in the economic----
    Mr. Panetta. Once again, Mr. Director, if I can--reclaiming 
my time--I appreciate it, but once again, are there any 
independent or non-partisan analysts who share your growth 
predictions? Yes or no.
    Mr. Vought. There are many economists out there who are 
advocates of economic growth at three and higher levels. There 
are forecasters out there, as I mentioned, who are 
predominantly looking at current law, and current economic----
    Mr. Panetta. OK, all right. Thank you, Mr. Director. 
Reclaiming my time--and I appreciate it--I got--I just have a 
short time here, and I want to get through this.
    The CBO has revised its estimates of the 2017 tax law's 
costs. Have you factored those increased costs into the deficit 
impacts, or is this Administration still insisting that the tax 
cuts pay for themselves?
    Mr. Vought. We continue to insist that the economic agenda 
of this budget, this President, everything from the tax cuts, 
its extension, the deregulatory initiatives will, in fact, pay 
for the static cost of the--both the original score and the 
extension of the tax cut.
    Mr. Panetta. Thank you. Fortunately, I was--I am on the 
Ways and Means Committee, as well, and we had a pretty good 
hearing yesterday about corporate tax revenues, or the lack 
thereof, I should say, as a share of the GDP, considering they 
are at a historically low rate, and lower than almost every 
other advanced economy.
    Does the Administration still believe that taxes should be 
reformed in any way on corporations?
    Mr. Vought. We are looking forward to a Tax 2.0 
conversation with regard to reform, and there is a lot of 
things that will be part of that conversation. We mainly are 
proposing to extend the tax cuts, but the Administration will 
continue to work on other tax reform proposals over the next 
several years.
    I know there has probably been news in the press along 
those lines, and that is when we attempt to get----
    Mr. Panetta. OK, thank you. As I mentioned, I am from the 
central coast of California. And there are certain things that 
we are threatened by when it comes to climate change: sea level 
rise, increased wildfires. Yet this budget cuts funding for the 
U.S. Geological Survey by 24 percent, and for NOAA, the 
National Oceanic and Atmospheric Administration, by 14 percent.
    Has this Administration factored any of the cost of climate 
change into its models?
    Mr. Vought. We have not.
    Mr. Panetta. Thank you. The--on the same lines, the budget 
greatly stifles clean energy innovation. It ends tax incentives 
for clean energy deployment, like the Solar Investment Tax 
Credit. It cuts funding for the Department of Energy's Office 
of Energy Efficiency and Renewable Energy by nearly three 
quarters. It eliminates ARPA-E, which is developing clean 
energy solutions of tomorrow.
    Without these programs and tax incentives, how will we be 
able to develop and deploy critical technologies to reduce 
emissions?
    Mr. Vought. If you look at the totality of our budget, we 
have about $8.5 billion that is devoted to climate-related 
research and clean energy technology R&D.
    So, look, we do have a shift from applied research to basic 
research, but we still feel like we are putting a very strong 
foot forward with the development of clean energy.
    Mr. Panetta. Thank you. I appreciate it. I yield back.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentlewoman from Texas, Ms. Jackson Lee, for five 
minutes.
    Ms. Jackson Lee. Mr. Chairman, Mr. Ranking Member, thank 
you so very much. And Mr. Vought, thank you for your service to 
the country.
    I am in at this moment, because I have sat this morning in 
a markup on Homeland Security, I just left a markup on 
Judiciary, which is still ongoing, but I did not want to miss 
the opportunity to at least ask one or two questions to the 
Administration.
    But I would offer to say that this symbol and language is 
clearly both misdirected and incorrect. This is not about 
America's future. This is not about an investment in America's 
future. This is a destructive document for ending America's 
future, particularly as it relates to the question of investing 
in all of the people of this country.
    I am stunned, literally stunned, at the various cuts, 
including the $1 trillion that is being cut out of Medicare and 
Medicaid, including close to $4 billion that is coming out of 
life-saving medical research, in light of the coronavirus--
there is a briefing coming up in just a minute or so. The 
reduction in education in districts like mine, $6.2 billion; a 
focus on charter schools, private, rather than public schools--
I am stunned. I am stunned at the lack of sensitivity to what 
this country needs.
    I am stunned that you would cut FEMA federal assistance, 
coming from a district that experienced Hurricane Harvey, 51 
trillion gallons of gas--primarily state and local--critical 
for terrorism and disaster preparedness by $746 million. I am 
stunned.
    And then, finally, I am further stunned--and I will ask a 
question--that all that it seems to be geared toward is to 
ensure that the most vulnerable people in this country get the 
short end of the stick.
    Let me share some information with you very quickly from 
the Center for the Study of Social Policy, ``The Racist Roots 
of Work.'' Work requirements do not support work, they harm 
families, the most basic part of it. In the years since 
Temporary Assistance was needy--for Needy Families, welfare, 
mandated work for families receiving cash assistance, hundreds 
of thousands of families have been left with less than $2 a day 
of cash in America.
    When Arkansas and other states have begun to implement work 
requirements in Medicaid, thousands of people have lost their 
health insurance. This spring, over 700,000 people will likely 
lose food assistance as states begin to implement the Trump 
Administration's expanded SNAP time limit.
    And what they are gearing it toward is that enslavery--they 
begin to characterize the descendants of enslaved Africans as 
lazy. That is all the stereotypes. And there were laws put in 
place that, if you were picking cotton, you couldn't get 
assistance. And so this document is trying to uproot the long 
belief that poor people, particularly African Americans, and 
now immigrants and others, are lazy.
    This budget clearly emphasized that, unfortunately, 
racially charged direction in cutting Medicaid, in cutting 
nutrition programs, in cutting housing. And so my question is 
this.
    Mr. Vought. Congresswoman, that is ridiculous.
    Ms. Jackson Lee. Excuse me, I have the time.
    Mr. Vought. Was President Clinton----
    Ms. Jackson Lee. I have the time, and I reclaim it.
    Mr. Vought. President Clinton signed into law welfare 
reform.
    Ms. Jackson Lee. I have the time.
    Mr. Vought. That included work requirement, Congresswoman.
    Ms. Jackson Lee. Will you----
    Chairman Yarmuth. Mr. Vought, Mr. Vought----
    Ms. Jackson Lee. Out of order, and my clock needs to stop. 
You don't have the time.
    Chairman Yarmuth. You will be given a chance to respond, if 
you want.
    Ms. Jackson Lee. How can you justify the inclusion of work 
requirements, which are not supported by any evidence that they 
increase employment and the repeal of the Medicaid expansion?
    In addition, how do you justify a budget like this that is 
full with the--how should I say it? It is full with the highway 
of damaged human beings, and you continue to do so with this 
destructive domestic cuts budget.
    And you also had an agreement where you would agree to fund 
defense spending and domestic spending the same, and you 
reneged on the agreement.
    What is your answer to that? Now I yield to you.
    Mr. Vought. Congresswoman, President Clinton signed into 
law historic legislation to reform welfare that had a work 
requirement in the TANF program, and it led to historic drops 
in caseload. Why? Because people were getting off of welfare, 
and getting on to the ladder of economic opportunity. The only 
thing that we do is----
    Ms. Jackson Lee. I voted against that bill.
    Mr. Vought. The only thing we do in this budget is expand 
it to food stamps, expand it to Medicaid, and expand it to 
housing, because we think it is a principle that will lead to 
more opportunity, rather than less.
    Ms. Jackson Lee. Mr. Chairman, I would like to put into the 
record the Washington Examiner, ``Seven Years of Change You Can 
See and Feel,'' by myself, dealing with the collapse of the 
economy under this Administration, dealing with what President 
Obama did.
    I don't think that is an answer, because it didn't work 
under the past Administration, it is not going to work now. 
Poverty is on the increase. You have people paying more money 
under the Trump tax cut for those making $50 to $100,000. They 
are going to pay more taxes, upwards of $1 billion, and those 
who are in the top 1 percent will pay less taxes. That is what 
I am saying about a destructive pathway.
    And I don't know how, in good conscience, that you could 
put this budget forward for us to even receive. You are doing 
nothing to reduce the deficit, except on the backs of children, 
poor mothers, elderly, and the disabled. It is shameful. Those 
who seek an opportunity that can--they can then provide for the 
greatness of this country.
    I am stunned. I yield back, Mr. Chairman.
    Chairman Yarmuth. The gentlewoman's time has expired. I--
without objection, her unanimous consent request is so ordered.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Yarmuth. Now I recognize the Ranking Member for 10 
minutes.
    Mr. Womack. I thank the Chairman, and I thank the Acting 
Director of OMB for being here and serving as a pinata for my 
friends on the other side of the aisle to just take as many 
shots at him as they prefer.
    I--as I said in my opening, at least the President has 
produced a budget. And, as has been mentioned many times, the 
Speaker of the House has indicated, ``When you show us your 
budget, you show us your values.''
    And, by the way, there was a very carefully worded question 
by my friend, Mr. Price from North Carolina, earlier in this 
hearing that I want to go back to, and that was about the 
passage of a budget when the Republicans last controlled this 
Committee, carefully worded in the sense that he said, ``Did 
Republicans pass a budget,'' assuming he is talking about on 
the floor. But I want to clarify, and make sure, for the 
record, as the chairman knows, that this Committee, where this 
process begins, did, in fact, produce a budget and passed a 
budget out of this Committee, and referred it to the House.
    Now, as the Director knows, and as my friend, the Chairman, 
knows, from there it becomes a matter of leadership to decide 
whether or not that particular piece of legislation goes to the 
full House. But I just want to be clear that this Committee did 
produce a budget in that year.
    Now, having said that, I want to get back to more of a 
higher level. I am often amused as to how, when a director like 
Director Vought or anybody in his position would suggest 
reforms or savings from programs funded at the federal level, 
that all of a sudden the world crumbles and lives are 
destroyed.
    In fact, Director Vought, when the federal government 
doesn't fund some programs, that doesn't mean that people are 
left out in the cold. In many cases, those programs are funded 
elsewhere.
    Let me bring up CDBG for just a minute, because Mr. Sires 
talked about CDBG, and I am very familiar with the Community 
Development Block Grant, because I was a mayor of an 
entitlement city. And I just want to ask you if, in fact, CDBG 
was not funded, is it accurate to say that all of the programs 
and all the services offered through those CDBG programs would 
no longer be funded?
    Mr. Vought. No, of course not. There would be other 
opportunities for those activities and initiatives to be 
funded.
    Mr. Womack. What would it require of those local 
governments to do?
    Mr. Vought. They would have to either look for other 
opportunities at the federal government to absorb that, or they 
would have to rely more on the tax base of their local 
community, so it is less of a revenue transfer from the federal 
government.
    Mr. Womack. But of the menu of things that they already 
fund outside of the programs funded by CDBG, would it not be 
fair to say that they would have to go back through their 
priorities and determine what, if any, of those programs funded 
by CDBG would need to be picked up by, say, the general fund?
    Mr. Vought. Absolutely.
    Mr. Womack. Isn't that what the federal government should 
do?
    Mr. Vought. We believe that to be the case. It is time to 
make tough choices, that even programs that have been around a 
long time, it is time to figure out, in an era of $23 trillion 
national debt where do we make tradeoffs?
    And one of those areas is the CDBG program, because we 
think that it has not led to the types of outcomes that would 
let--lead communities to ultimately get to a point where they 
didn't need that money, as opposed to just continuing to draw 
it down every year.
    Mr. Womack. See, my argument is that cities and counties 
that have an opportunity to pull money out of the federal 
government can save on those expenses at the local level, and 
re-prioritize, and take what would have been available for 
those services to fund other things: personnel, equipment, and 
what have you. And--but I think it is wrong to suggest that, 
because a program gets zeroed out, that all of those people are 
left out in the cold because they do have to go through a re-
prioritization.
    Isn't that what American families do every month that have 
household budgets?
    Mr. Vought. They do. They do--and they absolutely do. They 
go through every month, and they figure out what is coming in, 
and what is going out. How do you address what you are spending 
money--they typically go after what they spend to go out to 
eat, they--their hobbies, their shopping budget, and then they 
make tougher choices from there. But they make tradeoffs, and 
they know that they can't just get away with just continuing to 
put it on a credit card.
    Mr. Womack. So in that spirit, we are $23 trillion in debt. 
I don't have the number right in front of me, but I want to say 
the net interest on the debt is about--just short of $400 
billion. So, to make this relevant to, you know, somebody at 
home, this is like getting a credit card bill in the mail, and 
there is a place on that credit card bill that says minimum 
payment due, which is, effectively, the interest, in some 
cases, not all cases.
    But in this particular case, the $380 or $390 billion that 
we are going to pay in net interest, that does not reduce the 
debt at all, does it?
    Mr. Vought. No, it just pays for our interest payments.
    And just to give you a little perspective, that is about 
three times the size of the Department of VA.
    Mr. Womack. So----
    Mr. Vought. Significant resources are going just to pay the 
interest on the debt.
    Mr. Womack. So we are just paying the interest on the debt. 
All the while, the debt continues to go higher and higher and 
higher.
    And so my ultimate point is this, as an appropriator, not 
just a budget guy but an appropriator. All of that money that 
goes into net interest on the debt, as I said in my opening 
remarks, serves to crowd out other funding that might otherwise 
be available for some of the programs that we are trying to 
reform to try to find savings, so that we can save ourselves 
from this catastrophe. Would that not be an accurate statement?
    Mr. Vought. It is accurate, for sure.
    Mr. Womack. Now, both gentlemen to my left and right served 
with me a couple of years ago on the Joint Select Committee on 
Budget Process Reform, and one of the reasons we are in the 
shape we are in today is because we didn't do budgets. Budgets 
are hard to do these days.
    And so we ended up plucking numbers out of the air, what we 
called the 302a numbers, and set those in stone, as we did in 
the 2020 and 2021 timeframe. And then the four corners of 
leadership look at those numbers and come to some agreement, 
and then the rest of us are obliged to really go along with 
that, or force a government shutdown.
    The process is no longer working for the American people, 
certainly not consistent with the 1974 Budget Act. So I want to 
ask you a question about that in my remaining time.
    We have advocated, both Rob and Mr. Yarmuth, as members of 
that committee--we looked at fiscal targets as an example of a 
solution. If we can't balance the books, then at least let's 
look at a fiscal target out there. And we thought the debt-to-
GDP was probably one of those targets. In your budget, assuming 
that is a legitimate strategy, what are those debt-to-GDP 
targets from today to, say, in your budget?
    Mr. Vought. Sure. We would go to be roughly around 80 
percent of GDP to 66 percent to GDP. And we are a big supporter 
of fiscal goals. That is why we focus on balance. But there is 
a lot of different fiscal goals that you can come up with.
    And as someone who has written a budget before, it is next 
to impossible to make tradeoffs within a budget and produce 
these things with any degree of progress with regard to what 
you are going to do to the debt and deficits if you don't have 
a fiscal goal.
    Mr. Womack. You have been assailed because you are trying 
to find savings on the mandatory side of the spending ledger. 
We all know that 70 percent of the federal budget is on the 
mandatory side. And, without congressional action, it just 
continues to go out of sight.
    And the food fights that we have here in the Congress are 
usually on the discretionary side of the budget. You have felt 
some of that here today. But that is only about a third. It is 
about 30 percent of the federal budget.
    A data point that I think is worth repeating is that, as 
a--to illustrate the point, as a percentage of GDP, as a 
percentage of our economy, mandatory spending continues to go 
higher, does it not?
    Mr. Vought. It does.
    Mr. Womack. As a percentage of GDP, the money left for all 
of the other things that are included in the discretionary 
budget--that is, the budget that the appropriators will 
allocate--is going lower, correct?
    Mr. Vought. It is a fair point. I think that there needs to 
be a look at all aspects of the federal budget.
    But in terms of the main mathematic structural driver of 
deficit, it is certainly on the mandatory side.
    Mr. Womack. Now, if we are going to get after the mandatory 
side in some kind of a budget format, doesn't it stand to 
reason that we do a budget resolution that includes all the 
federal spending?
    Mr. Vought. Yes.
    Mr. Womack. Are there tools in the toolbox that the Budget 
Committee can use, with which to be able to bring down some of 
the mandatory side?
    Mr. Vought. There are certainly tools that budget 
resolutions can do to be able to propose spending on both the 
discretionary and the mandatory side. That is what we have 
tried to do with this budget, as well.
    Mr. Womack. But you got to do a budget resolution in order 
to be able to get to that particular tool in the toolbox.
    Mr. Vought. Yes, you can't--you--without a budget 
resolution passed by the House and the Senate, you are not 
going to do a reconciliation bill that has a chance of getting 
through the U.S. Senate.
    Mr. Womack. Thank you, Mr. Director. I appreciate you being 
here today.
    Chairman Yarmuth. The gentleman's time has expired. I now, 
just under the wire, recognize the gentlewoman from Illinois, 
Ms. Schakowsky, for five minutes.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    So in 2016, Candidate Donald Trump said, ``I was the first 
and only potential GOP candidate to state there will be no cuts 
in Social Security, Medicare, or Medicaid.'' And then, after he 
won the nomination, with the help of plenty of senior citizens, 
every--and every year since his election, he has posed as a--he 
has posed as a champion for senior citizens, et cetera. But yet 
every year he has broken the promises.
    So Mr. Vought, in this year's budget you propose to slash 
$500 billion from Medicare, almost $1 trillion from Medicaid, 
and $24 billion from Social Security--for Social Security 
disability. Am I right?
    Mr. Vought. No, you are not.
    Ms. Schakowsky. Yes, I am.
    Mr. Vought. The President fully protects Social Security 
and Medicare in this budget, as he has affirmed each and every 
opportunity he has on----
    Ms. Schakowsky. You are saying those numbers are--don't 
exist?
    Mr. Vought. I am saying that they do not reflect the 
reality that these programs are going up each and every year. 
Medicare will go up--will grow by 6 percent----
    Ms. Schakowsky. A hundred----
    Mr. Vought. Medicaid will grow by 3 percent.
    Ms. Schakowsky. OK. We really interpret numbers, I guess, 
different from you, when there is almost $1 trillion cut out of 
Medicaid.
    So, Mr. Vought, yes or no, just hours before the 
introduction of the budget on Monday, did President Trump 
tweet, ``We will not be touching your Social Security or 
Medicare in fiscal 2021 budget?''
    Mr. Vought. That tweet is fully reflected in the budget 
that you see today. This budget fully protects Social Security 
and Medicare beneficiaries.
    Ms. Schakowsky. President--I mean we totally disagree on 
that, as do all the advocates for Social Security, Medicare, 
and Medicaid who are professionals, as well.
    President Trump also loves to say that ``our air and water 
are the cleanest they have ever been.'' So, Mr. Vought, yes or 
no, does this budget propose cutting funding for the 
Environmental Protection Agency?
    Mr. Vought. It does. It proposes a cut to EPA by about 26 
percent, and we believe that we will still be able to fulfill 
the statutory responsibilities of clean air, clean water, clean 
land----
    Ms. Schakowsky. Now, we have also seen, in the time that he 
has been President, an increase in carbon emissions going 
absolutely in the wrong way.
    And when it comes to education, the President, it seems, is 
not any different. At the state of the Union, Americans saw a 
spectacle of President Trump giving a young, African-American 
girl--who, by the way, didn't have a seat there, she was on the 
stairs--a scholarship to a school of her choice, saving her 
from the failing government schools.
    But the Philadelphia Inquirer reported that the student 
already attended one of Pennsylvania's top charter schools.
    So, Mr. Vought, yes or no, does the Fiscal Year 2021 budget 
cut the Department of Education's funding?
    Mr. Vought. There is a $20 billion education block grant in 
this budget that consolidates 30 programs in a way that allows 
states more flexibility. It would be at roughly the same level 
as last year, once you assume the elimination of programs that 
we have long believed don't work.
    Ms. Schakowsky. You have long believed don't work.
    In fact, every budget President Trump has proposed has cut 
critical funding for our public schools. We call them public 
schools. I was a public school teacher. I am very proud of 
that. And now this idea that they are these failing government 
schools, I am not sure what the implication was.
    It is the same story this year with this proposed $5.6 
billion in cuts for the Department of Education. The 
President's 2021 budget is nothing more than a laundry list of 
broken promises. I am proud to be part of the House Democratic 
majority that will invest in America's health care, 
environment, and education for years to come.
    And I yield back.
    Chairman Yarmuth. The gentlewoman yields back. I now yield 
myself--oh, would you like to respond?
    Mr. Vought. I just want to quickly correct one thing. I had 
referred to nearly $1 million in waste. I was referring to the 
professional cricket league in Afghanistan. So I just want to 
make sure that is understood for the record.
    And back to you, Mr. Chairman.
    Chairman Yarmuth. OK, thank you. I now yield myself 10 
minutes, and I begin by thanking you for your patience, your 
indulgence. I know these things can get a little heated and 
contentious. But you have handled that very responsibly, and in 
a dignified fashion. So I thank you for that.
    And I want to remind everyone, just for the record, that 
the majority leader of the Senate has announced that the Senate 
is not going to do a budget, as well. And I raise that not to 
say because they did it--are not doing it, we are not doing it. 
The fact is we passed a budget last year for two years. We have 
appropriated to that. And the majority here, we have shown our 
values. Passing a budget resolution this particular year would 
change absolutely nothing. And next year, if we are still in 
the majority, my Ranking Member friend, you can hold me to a 
different type of obligation next year.
    So we--a lot of disagreements here on what are cuts or not, 
and what are not cuts. And I understand, with things like 
Medicare and Medicaid, it is a legitimate argument. But on the 
discretionary side of the budget, this year, under the 
President's budget, total discretionary, non-defense spending 
would be $590 billion. That is about a $40 billion cut from 
current year, and from the caps that we agreed on in the 
bipartisan deal.
    Do you know what the total non-discretionary spending will 
be in 2030?
    Mr. Vought. In 2030, off the top of my head, no, I don't 
know that.
    Chairman Yarmuth. Well, according to Bob Greenstein at the 
Center on Budget and Policy Priorities, it will be somewhere 
around $406 billion. And he characterized it as the lowest 
level of non-defense discretionary spending as a percentage of 
the economy since the Coolidge Administration, when the 
government, federal government, was, obviously, a lot less 
active and a lot smaller.
    So it is hard to say that that is--there has not been a 
significant cut to that side of the budget, which has many 
programs that are very important to moderate and lower-income 
individuals.
    So--and I have to be a little bit miffed, I guess is the 
best word, because you talk about savings and waste and fraud, 
and that you are going to do different types of approaches. But 
has the Administration offered any legislation in any of these 
areas? The Administration has not offered legislation to deal 
with health care, to deal with an alternative education student 
loan program, to do an infrastructure bill.
    You talk about--you mention a $1 trillion infrastructure 
program. It is not really $1 trillion, it is $190 billion. And 
that is matched by $800 billion in city and state or private 
funds. So the federal commitment, the taxpayers' commitment, is 
not anywhere close to $1 trillion.
    But if you have programs--so, I mean, the point is that we 
are trying to accept--you are asking us to accept the fact that 
you are going to save money with all these alternative 
approaches, but the Administration has never offered any 
legislation to give us any confidence that it can carry out 
that--those programs.
    And when you talk about preexisting conditions, forgive me 
for being a little bit snarky, but for somebody who has lied--
according to the FactCheck or the Washington Post--16,000 times 
in his three years in office, the fact that he says he is going 
to protect preexisting conditions when no one--no one in this 
country has ever proposed a plan to protect preexisting 
conditions and guarantee price to the American patient, 
American consumer--yes, you could have guaranteed issue, they 
can buy insurance, but you are not going to be guaranteed a 
price protection, which means they aren't protected.
    So I am a little--I think it is a little bit disingenuous 
to say that we can--the President has committed to protecting 
preexisting conditions because, again, nobody has ever been 
able to come up with a plan, other than the ACA or a program 
like Medicare or Medicaid, to do that.
    Mr. Vought. Can I speak to that, Congressman?
    Chairman Yarmuth. Yes, sure.
    Mr. Vought. Mr. Chairman, a couple things. On the 2 percent 
reduction for non-defense, all we are asking to do is go from a 
5 percent in one year and 2 percent each year. We believe 
that--we call it a two-penny plan. We believe that is 
completely rational, and something that, over time, we can find 
the reforms--and it would require reforms. We put out a 
government reorganization plan to be able to start this debate 
about the magnitude of what would be necessary.
    Similarly, sometimes in our budgets we propose a lot of 
specificity, and sometimes we don't. Our first year we had a 
lot of specifics on infrastructure, and the Hill came back to 
us and said, ``Next time we actually want to get something done 
in this area, we would prefer you not to have as much 
specifics.'' And that is where we currently are.
    We have a $1 trillion plan. We assume that--higher levels 
of spending, along the lines of what Senator Barrasso has put 
forward. We fill the Highway Trust Fund with savings from 
mandatory reforms elsewhere. So we believe we are putting a 
credible path forward.
    What we have refused to do is raise taxes on the American 
people.
    Chairman Yarmuth. Right.
    Mr. Vought. And then, finally, on--the President--it is not 
just his commitment that he has repeatedly articulated. He has 
put forward plans, or supported plans that do this.
    We had, last year in the budget, a specific proposal called 
Graham-Cassidy. It is not in there this year, because Graham--
the President is working on his own plan that we are not yet 
ready to reveal. But I am--but it will be fully reflected in 
what he comes forward with, and it has been in past plans that 
he has supported.
    Chairman Yarmuth. All right. Thank you very much.
    Now, in your testimony I think you misspoke. You cited a 
statistic that this Administration has touted in recent months, 
and you said that the bottom half of the country, the 
population, has had their--you said today--income grown by 47 
percent, and your testimony actually says that their net worth 
has grown by 47 percent. Am I correct, it is net worth and not 
income you are talking about?
    Mr. Vought. Yes, that is correct.
    Chairman Yarmuth. Right. So, given the fact that one in 
five American families has zero to negative net worth, it 
doesn't take much--it could take $10 or $100--to get a pretty 
significant percentage increase. But that is not the point I am 
going to get at.
    In dollar terms, that increase for the bottom half of the 
population of households amounted to roughly $500 billion. Do 
you know what the same dollar increase in the net worth was for 
the top 1 percent?
    Mr. Vought. I don't have that at my fingertips right now. 
But we do believe----
    Chairman Yarmuth. I do have this answer.
    Mr. Vought. We do believe that we are getting people off of 
welfare. Ten million people have gotten off of welfare. Seven 
million people are off of food stamps. And, over time, their 
incomes double and triple, once they are off of these cycles of 
dependency.
    So while a number--and I haven't checked that math 
recently, but to the extent that there is a smaller number on a 
chart that you produced along those lines, we don't think that 
that is a dynamic story. We think the dynamic story will be 
more economic opportunity over the next----
    Chairman Yarmuth. I understand that. But the top 1 
percent's net worth has grown $3.5 trillion, $3.5 trillion 
versus a half-a-billion--I mean $500 billion for the entire 
half of the population. So any idea that this economy has in 
any way balanced the scales of income inequity or net worth in 
the country is ridiculous.
    You know, I am going to conclude by asking you something I 
mentioned in my opening remarks. I said it is your obligation, 
as Acting Director, to ensure that OMB is adhering to the 
requirements of the Impoundment Control Act, and fully 
respecting that the Constitution invests Congress with the 
power of the purse.
    As Acting OMB Director, what steps are you taking to ensure 
that OMB will not withhold duly enacted appropriations again 
from the agencies to whom Congress appropriated those funds?
    And what steps are you taking to ensure that information is 
being shared with Congress, and that there is transparency for 
the American people?
    Mr. Vought. Yes, we believe we have been transparent. So up 
until the point in which the impeachment proceedings began, or 
the beginnings of impeachment proceedings--I want to be 
careful, because we have been able to have a hearing without 
re-litigating the last several months--we were producing 
information, as we normally would, with both this Committee and 
the Appropriations Committee regarding specific apportionments 
and things along those lines. That is how we operate.
    We have given GAO all the information that they have 
requested, to our knowledge. There is a recent accusation along 
the lines of something different, but the letter that we sent 
to GAO, we believe, had the information that they were 
requesting. And there was no followup from GAO.
    So the short and sweet answer is, yes, we will continue to 
be transparent with regard to how we manage the people's money. 
And all that we are doing is managing it efficiently, 
economically, with spend plans to ensure that money is not 
wasted in the process.
    Chairman Yarmuth. But that ultimately is not your 
determination. If Congress decides to pass a wasteful program--
and we certainly shouldn't do that--is it--do you feel it is 
your obligation to implement the spending priorities that the 
Congress establishes, or do you not?
    Mr. Vought. I--we believe that we need to abide by the 
appropriation that you have passed by Congress, that our 
ability to manage efficiency and economically within that 
appropriation--we look at the appropriations law, we look at 
the authorization law, and we figure out what our flexibility 
is in--within that framework.
    Chairman Yarmuth. OK. Well, I accept your office, but we 
will--your answer and your representation, and I will--and we 
will hold you to it.
    Thank you very much, once again, for being here, and your 
work on behalf of the American people.
    And with no--if there is no further business, the hearing 
is adjourned.
    [Whereupon, at 1:07 p.m., the Committee was adjourned.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
</pre></body></html>
